<html>
<title> - ADVANCING UNITED STATES' INTERESTS AT THE UNITED NATIONS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                   ADVANCING UNITED STATES' INTERESTS AT THE 
                                  UNITED NATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 16, 2015

                               __________

                           Serial No. 114-59

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                        U.S. GOVERNMENT PUBLISHING OFFICE
95-125 PDF                  WASHINGTON : 2015                        
                      
                      
________________________________________________________________________________________                      
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6d0a1d022d0e181e190508011d430e020043">[email&#160;protected]</a>  
                      
                      
                      
                      
                      
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Samantha Power, U.S. Permanent Representative, 
  United States Mission to the United Nations, U.S. Department of 
  State..........................................................     4

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Samantha Power: Prepared statement.................     8

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    63
Written responses from the Honorable Samantha Power to questions 
  submitted for the record by the Honorable Ileana Ros-Lehtinen, 
  a Representative in Congress from the State of Florida.........    64


        ADVANCING UNITED STATES' INTERESTS AT THE UNITED NATIONS

                              ----------                              


                         TUESDAY, JUNE 16, 2015

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:13 a.m. in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order.
    This morning we look at the role of the United Nations and 
we look at the role of the U.S. there with Ambassador Samantha 
Power.
    She has spent 2 years as the U.S. Permanent Representative 
to the U.N. The Ambassador has approached her job with great 
energy, great determination, perhaps best shown during last 
year's Ebola crisis in West Africa. And, in that case, the 
administration and Congress worked together to contain Ebola 
and to save lives. Ambassador, thank you for those efforts. 
Thank you for joining us today.
    The Ambassador's testimony comes at an important time. If a 
final Iran nuclear agreement is reached, and the deadline is in 
2 weeks, then the Security Council will be expected to remove 
international sanctions while preserving the ability to react 
to Iranian cheating. And given all we know about the history of 
Iran's nuclear program, cheating should be expected.
    The committee wants to know how, in a case of cheating, a 
proposed sanctions ``snap-back'' process would work. We know 
for sure that Russia and China wouldn't make this easy. And I 
have never known any U.N. process described as taking place in 
a ``snap.'' Last week's revelation by a panel of U.N. experts 
that there has been not a single report of Iran violating the 
U.N. arms embargo not only lacks any credibility, but calls 
into serious question the chances of the U.N. snapping back any 
sanctions.
    The committee is disturbed to watch the U.N.'S continuing 
anti-Israeli bias, especially in the Human Rights Council. More 
disturbing is that the Obama administration seems to be on the 
brink of discarding decades of bipartisan support of Israeli 
against the U.N. onslaught. President Obama has raised the 
dramatic step of allowing the Security Council to impose 
conditions related to a two-state solution rather than 
supporting negotiations between the parties themselves. 
Ambassador, as Ranking Member Engel and I wrote to you the 
other month, an imposed plan will not get us closer to peace.
    Nearby, Syrians are being slaughtered before the world's 
eyes. Two years ago the United Nations called the crisis in 
Syria the worst humanitarian disaster since the Rwandan 
genocide. Yet, despite several U.N. resolutions, the Assad 
regime continues its indiscriminate barrel bombing and chemical 
weapons attacks.
    Those responsible for these war crimes must be held 
accountable. Ambassador, you have said this, to your credit. 
But when? When will that accountability come? The committee 
hears testimony tomorrow from some of the brave Syrians who 
have appeared in front of the Security Council to share their 
stories of responding to Assad's abhorrent attacks, including 
chemical attacks.
    Elsewhere, religious minorities are under attack. Unable to 
claim citizenship in Burma or elsewhere, many have called the 
Rohingyas ``the most persecuted minority in the world.'' 
Burma's persecution has led thousands to desperately flee to 
overloaded boats. Many are rightly bothered by the United 
Nation's poor track record protecting Rohingyas. Young Rohingya 
Muslim girls can think that they are finding safe haven, but 
end up being trafficked, being sexually exploited, being led 
into a lifetime of misery.
    United Nation's peacekeeping, by the way, despite many 
shortcomings, has managed to protect innocent civilians and 
minorities. In recent years, the missions in the Democratic 
Republican of Congo, in Mali and South Sudan have saved lives. 
The committee wants to continue working with the Ambassador to 
see that these missions are appropriately supported, and we 
hope that something can be done for the Rohingya people. That 
is easier if failing missions some decades old are closed and 
the horrendous sexual abuses are tackled head on.
    U.N. reforms shouldn't be limited to peacekeeping. This 
summer, when the U.N.'S scale of assessments is reviewed, I 
trust the U.S. delegation will be working to spread the burden 
and give major donors greater say in management decisions.
    Ambassador Power, you will be wrestling with many critical 
issues in the coming months. To say you have a difficult and 
even hostile environment at the U.N. is an understatement, but 
you do not appear to be one to shy away from a challenge. I 
look forward to continuing to work with you on these pressing 
matters. We thank you again for being with us today.
    And I will now turn to Mr. Eliot Engel, the ranking member, 
of New York for his opening statement.
    Mr. Engel. Thank you, Mr. Chairman, for holding this 
hearing.
    And, Ambassador Power, welcome. Thank you for your 
testimony today and, more importantly, for your distinguished 
service. As far as I am concerned, you are certainly the right 
person at the right time to be our U.N. Ambassador and we are 
lucky to have you.
    Across seven decades, the United Nations has done a great 
deal of good: Millions saved from starvation, diseases like 
smallpox wiped off the map, sanctions that have ended conflict 
and curbed terrorism, peacekeeping missions that have brought 
stability to war-torn regions.
    At the same time, however, we must acknowledge that the 
U.N. is far from perfect. We need to improve the organization's 
management, enhance transparency and strengthen internal 
oversight, and we must continue to speak out forcefully when 
member states use the U.N. as a platform to unfairly single out 
Israel.
    In my mind, the best way to address these problems and to 
advance American foreign policy priorities is to maintain our 
engagement with the organization. U.S. leadership at the U.N. 
has headed off deeply biased and one-sided resolutions 
targeting Israel. We cast a lone no vote against the Commission 
of Inquiry into the situation in Gaza.
    We have helped scale back the number of anti-Israel efforts 
in the Human Rights Council overall. And the Human Rights 
Council has really been a joke, as far as I am concerned.
    We pushed back against the resolution recognizing 
Palestinian statehood, and we have rejected efforts by the 
Palestinians to use the U.N. to gain concessions from Israel 
outside of the context of negotiations.
    I want to thank you, Madam Ambassador, because you have 
been such a champion to Israel. The Israeli Ambassador to the 
U.N. said last week that, if it weren't for the help of the 
United States and you personally, Israel--and I quote him--
``would be in real trouble.'' When the United Nations continues 
to attack Israel, it really undermines the credibility of the 
United Nations.
    I am confident that you will continue to make clear, Madam 
Ambassador, that the United States will continue to oppose any 
biased or one-sided resolutions at the U.N. and that we will 
not shy away from using our veto at the Security Council, if 
necessary, despite some of the rhetoric we have heard from 
President Obama.
    But even with strong American involvement, the U.N. has 
been virtually paralyzed when it comes to a range of challenges 
around the world because other members of the Security Council 
continue to block meaningful action. I would like to mention 
just a few. I am eager to hear your views on these topics.
    I will start with the civil war in Syria. Half the 
population of that country has been displaced. An entire 
generation is growing up in refugee camps. To be sure, the U.N. 
has done a lot for refugee families in Jordan, Lebanon, and 
Turkey, and most of the assistance for Syrian people inside 
Syria has flowed through the U.N.
    But Russia's intransigence has prevented the U.N. from 
playing a more active role in helping the Syrian people chart a 
better future for their country. And that is only the tip of 
the iceberg with Russia.
    Under Vladimir Putin's leadership or lack of leadership, 
Russia has walked away from democracy, the rule of law, and 
human rights. Their ongoing intervention in Ukraine threatens 
stability and democracy across Europe. This war has left 
thousands dead, tens of thousands wounded, and more than 1 
million displaced. We need to expose the Kremlin's lies 
wherever and whenever we can. So I commend you for shining a 
light on the hard facts in the U.N.
    With regard to Iran, we are all eager to see what a 
comprehensive nuclear deal will look like. I am particularly 
concerned about who will determine if Iran is in violation of 
the agreement. What happens if we think Iran has stepped over 
the line, but Russia and China disagree? I am also concerned 
about how and when U.N. sanctions against Iran will be lifted. 
The U.N. is going to have a big role to play, and I am eager to 
hear your views about how this process will move forward.
    Finally, in our own neighborhood, I am very pleased that 
the mandate for the U.N. International Commission Against 
Impunity in Guatemala was recently renewed. Creating similar 
conditions in Honduras and El Salvador would make a big 
difference in fighting corruption and impunity, and I hope we 
can work together urging our partners to take this step.
    Ambassador Power, thank you again for appearing today. I 
look forward to your testimony.
    Chairman Royce. Thank you.
    So this morning we are pleased to be joined by Ambassador 
Samantha Power. She is the United States Permanent 
Representative to the United Nations and a member of the 
President's cabinet.
    Prior to her appointment to the U.N., Ambassador Power 
served as special assistant to the President and Senior 
Director for Multilateral Affairs and Human Rights on the 
National Security staff at the White House. Ambassador Power is 
the Pulitzer Prize winning author of ``A Problem from Hell: 
America and the Age of Genocide.''
    We thank you for being with us today.
    And, without objection, the witness' full prepared 
statement will be made part of the record and members will have 
5 calendar days to submit any statements or questions or 
extraneous material for the record.
    Ambassador Power, I would ask you if you could please 
summarize your remarks and then we will go to questions. Thank 
you.

   STATEMENT OF THE HONORABLE SAMANTHA POWER, U.S. PERMANENT 
 REPRESENTATIVE, UNITED STATES MISSION TO THE UNITED NATIONS, 
                    U.S. DEPARTMENT OF STATE

    Ambassador Power. Thank you, Mr. Chairman.
    Thank you, Congressman Engel.
    Distinguished members of the committee, thank you for the 
opportunity to testify today and thank you for being here. 
Thank you, also, for your leadership in advancing America's 
national security interests and our values in the world.
    Last week I traveled to Ukraine, where I had the chance to 
see up close what happens when the rules undergirding our 
international peace and security are ignored.
    At a shelter for displaced families in Kiev, I met a mother 
who told me how her husband and 2-year-old child had been 
killed in February when a shell struck their home in a village 
in eastern Ukraine.
    The shelling, as you all know, was part of a sustained 
assault by combined Russian separatist forces and the victims, 
just two of the more than 6,300 people who had been killed in 
the Moscow-manufactured conflict.
    Shortly after the attack the mother fled town with her five 
surviving children in a van whose roof and doors had been 
blasted out. Her plea, one I heard echoed by many of the 
displaced families I met from eastern Ukraine and occupied 
Crimea, was for the fighting to stop and for their basic rights 
to be respected.
    As the members of this committee know, we are living in a 
time of daunting global crises. In the last year alone, Russia 
continued to train, arm, and fight alongside separatists in 
eastern Ukraine. A deadly epidemic spread across West Africa, 
and monstrous terrorist groups seized territory across the 
Middle East and North Africa committing unspeakable atrocities.
    These are the kinds of threats that the United Nations 
exists to prevent and address. Yet, it is precisely at the 
moment when we need the U.N. most that we see the flaws in the 
international system, some of which have been alluded to 
already.
    This is true for the conflict in Ukraine in which a 
permanent member of the U.N. Security Council is violating the 
sovereignty and territorial integrity that it was entrusted 
with upholding.
    It is true of the global health system that, despite 
multiple warnings of a spreading Ebola outbreak, including 
those from our own CDC, was slow to respond to the epidemic.
    And it is true of U.N. peacekeepers who too often stand 
down or stand by when civilians they are responsible for 
protecting come under attack, thus leaving populations 
vulnerable and sometimes open to radicalization.
    Representing our Nation before the United Nations, I have 
to confront these and other shortcomings every day. Yet, though 
I am clear-eyed about the U.N.'S vulnerabilities, the central 
point I want to make to this committee is that America needs 
the United Nations to address today's global challenges.
    The United States has the most powerful set of tools in 
history to advance its interests, and we will always lead on 
the world stage. But we are more effective when we ensure that 
others shoulder their fair share and when we marshal 
multilateral support to meet our objectives.
    Let me quickly outline five ways we are doing that at the 
U.N.
    First, we are rallying multilateral coalitions to address 
transnational threats. Consider Iran. In addition to working 
with Congress to put in place unprecedented U.S. sanctions on 
the Iranian Government, in 2010 the Obama administration 
galvanized the U.N. Security Council to authorize one of the 
toughest multilateral sanctions regimes in history.
    The combination of unilateral and multilateral pressure was 
crucial to bringing Iran to the negotiating table and 
ultimately to laying the foundation whereby we were able to 
reach a framework agreement that would, if we can get a final 
deal, effectively cut off every pathway for the Iranian regime 
to develop a nuclear weapon.
    Consider our response to the Ebola epidemic. Last 
September, as people were dying outside hospitals in West 
Africa, hospitals that had no beds left to treat the exploding 
number of Ebola patients, the United States chaired the first-
ever emergency meeting of the U.N. Security Council dedicated 
to a global health issue.
    We pressed countries to deploy doctors and nurses, to build 
clinics and testing labs, and to fill other gaps that 
ultimately helped bend the outbreak's exponentially rising 
curve.
    America did not just rally others to step up, we led by 
example, thanks, also, very much to the support of this 
Congress deploying more than 3,500 U.S. Government civilian and 
military personnel to Liberia, which has been Ebola-free since 
early May.
    Second, we are reforming U.N. peacekeeping to help address 
the threats to international peace and security that exist in 
the 21st century. There are more than 100,000 uniformed police 
and soldiers deployed in the U.N.'S 16 peacekeeping missions 
around the world. That is a higher number than in any time in 
history, with more complex responsibilities also than ever 
before.
    The United States has an abiding strategic interest in 
resolving the conflicts where peacekeepers serve, which can 
quickly cause regional instability and attract extremist groups 
as we have seen in Mali. Yet, while we have seen peacekeepers 
serve with bravery and professionalism in many of the world's 
most dangerous operating environments, we have also seen 
chronic problems too often, as mentioned, including the failure 
to protect civilians.
    We are working aggressively to address these shortfalls. To 
give just one example, we are persuading more advanced 
militaries to step up and contribute soldiers and police to 
U.N. peacekeeping. That was the aim of a summit that Vice 
President Biden convened at the U.N. last September where 
Colombia, Sweden, Indonesia, and more than a dozen other 
countries announced new troop commitments.
    And it is the message I took directly to European leaders 
in March when I made the case in Brussels that peacekeeping is 
a critical way for militaries to do their fair share in 
protecting our common security interests, particularly as they 
draw down in Afghanistan.
    This coming September, President Obama will convene another 
summit of world leaders to build on this momentum and help 
catalyze a new wave of commitments and generate a new set of 
capabilities for U.N. peacekeeping.
    Third, we are fighting to end bias and discrimination at 
the U.N. day in and day out we push back against efforts to de-
legitimize Israel at the U.N. and we fight for its right to be 
treated like any other nation, from mounting a full-court 
diplomatic press, to heap secure Israel's permanent membership 
into two U.N. groups from which it had long and unjustly been 
excluded, to consistently and firmly opposing one-sided actions 
in international bodies.
    In December, when a deeply unbalanced draft resolution on 
the Israel-Palestinian conflict was hastily put before the 
Security Council, the United States successfully rallied a 
coalition to join us in voting against it, ensuring that the 
resolution failed to achieve the nine votes of Security Council 
members required for adoption. We will continue to confront 
anti-Israel bias wherever we encounter it.
    Fourth, we are working to use U.N. tools to promote human 
rights and affirm human dignity as we did by working with 
partners to hold the first-ever Security Council meeting 
focused on the human rights situation in North Korea in 
December. We used that session to shine a light on the regime's 
horrors, a light we kept shining through a panel discussion I 
hosted in April with escaped victims of the regime.
    One woman told of being forced to watch the executions of 
fellow prisoners who committed the ``crime'' of daring to ask 
why they had been imprisoned, while another woman told how 
members from three generations of her family--her grandmother, 
her father, and her younger brother--had starved to death. This 
is important for U.N. member states to hear.
    Fifth, we are doing everything within our power to make the 
U.N. more fiscally responsible, more accountable, and more 
nimble, both because we have a responsibility to ensure 
American taxpayer dollars are spent wisely and because 
maximizing the efficiency of our contributions means saving 
more lives and better protecting the world's most vulnerable 
people.
    Since the 2008 to 2009 fiscal year, we have reduced the 
cost per peacekeeper by 18 percent and we are constantly 
looking for ways to rightsize missions in response to 
conditions on the ground as we will do this year through 
substantial drawdowns in Cote d'Ivoire, Haiti, and Liberia, 
among other missions.
    Let me conclude. At the outset, I spoke of my recent visit 
to Ukraine. Across the range of Ukrainians I met, from the 
mother who lost her husband and 2-year-old child in the 
assaults by combined Russian separatist forces, to the brave 
students who risked their lives to take part in the Maidan 
protesters against the kleptocratic Yanukovych government, to 
the young members of Parliament working to fight corruption and 
increase transparency, what united them was the yearning for 
certain basic rights and the belief that the United States 
could lead other countries and the United Nations in helping 
make their aspirations a reality.
    I heard the same sentiment when visiting the U.N.-run camps 
of people displaced by violence in the Central African 
Republic, in South Sudan, and in the Ebola-affected communities 
of Guinea, Liberia, and Sierra Leone at the peak of the 
outbreak.
    Some may view the expectation that America can help people 
overcome their greatest challenges and secure their basic 
rights as a burden. In fact, that expectation is one of our 
Nation's greatest strengths and one we have a vested interest 
in striving to live up to, daunting as it may feel in the face 
of so many crises.
    But we cannot do it alone, nor should we want to. That is 
why it is more important than ever that we use the U.N. to 
rally the multilateral support needed to confront today's 
myriad challenges.
    Thank you. And I look forward to your questions.
    [The prepared statement of Ambassador Power follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]        
       
                              ----------                              

    Chairman Royce. Thank you, Ambassador.
    Myself and Eliot Engel have had frequent conversations on 
this issue of Iran's nuclear weapons capability, and I 
indicated several years ago that this was going to be the 
primary focus of this committee, was trying to prevent what I 
worry will be the undetectable nuclear breakout capability of 
Iran.
    Now, I want to ask you about this Iran agreement and U.N. 
snap-back sanctions. If we have cheating on the part of Iran, 
as they have cheated on every other agreement so far--and this, 
I would presume, is going to be a real problem if we go forward 
and we don't get the verification in this agreement that has to 
be in the agreement--so now we take up this dispute resolution 
panel, as it is called, this issue, which would likely include 
the six powers and Iran, the International Atomic Energy Agency 
would also continue reporting on Iran's program under this 
suggestion here.
    But here is my question. You have got Russia and China 
playing a role. So it is not clear to me how U.N. sanctions 
realistically would snap back once the cheating is found. And I 
would just add the caveat that we would also probably see a 
situation where Russian, Chinese, French, German companies are 
back in Iran. Commerce is flowing. It is going to be very 
difficult stop, certainly not at a snap. So walk me through 
that, if you would.
    Ambassador Power. Thank you, Mr. Chairman.
    First let me very much agree with the comment you made 
earlier that nothing that happens at the U.N. tends to happen 
in a snap. I have lived that firsthand.
    But let me also underscore that President Obama and the 
entire negotiating team and certainly I, as a member of the 
administration, also embrace your premise that we cannot trust 
on the basis of past Iranian actions, on the basis of current 
Iranian actions, outside the nuclear sphere.
    So I think there are two very important aspects, both of 
which you have touched upon, but just to elaborate on, that 
show that any agreement that we reach would be predicated, in 
fact, on a lack of trust.
    So the first is, in fact, one of the most intrusive 
inspection regimes imaginable, the ability to monitor what is 
happening along the nuclear supply chain to an unprecedented 
extent, forever commitments related to the additional protocol, 
and the modified code. I mean, these are things that are going 
to last well beyond the life of this agreement.
    And I think what is important about it is recognizing that 
there, of course, are dangers of covert capabilities being 
brought online. And that, again, is what this inspection regime 
is oriented around.
    But the second manifestation, I think, of the lack of trust 
is the snap-back mechanism. And one snap-back mechanism, of 
course, is within our own hands. There are many sanctions that 
the President of the United States just would be able to snap 
back with the stroke of a pen.
    But, in my world, President Obama has been very clear from 
the very beginning that we cannot allow a procedure for snap-
back to be left in the hands of Russia or China for the very 
reason that you indicate.
    While it is true that we were able to get the multilateral 
sanctions regime through the Security Council, again, the 
toughest, I think, in the 70-year history of the United 
Nations, it does not therefore follow that, in the event of 
breach, that we would be able to get that same resolution 
through a second time.
    And so, while I can't get into the specifics of the 
mechanism right now because we are at a very delicate stage in 
the negotiation and all of this is being worked through to the 
finest detail, I can say, number one, Congress will be briefed 
as soon as the deal is done, if it gets done, and, number two, 
we will not support a snap-back mechanism or an agreement that 
includes a snap-back mechanism that leaves us vulnerable in the 
manner that you are fearful of. In other words, we will retain 
the ability to snap that multilateral sanctions architecture 
back in place without Russian or Chinese support.
    Chairman Royce. I think that has to be the focus because it 
took so many years for the international sanctions to be put in 
place so that those companies terminated their business with 
Iran. And now we have a situation as a result of the way this 
is being negotiated where they are all waiting to position 
themselves to get back into the country.
    Now, the other aspect of this, as you say, we are going to 
have an effective sanctions regime. That would imply, then, 
that what the Iranians are telling the world, which is that 
there is not going to be any investigation on their military 
bases, that the international inspectors are not going to be 
able to have access to those types of sites--and, as you know, 
that is where they have done a lot of their testing, is on 
those military sites--that would put us in the precarious 
position of an agreement that would be like the 1994 Framework 
Agreement with North Korea, where without the ability of the 
international inspectors to actually go into those types of 
sites, the cheating would be, in a case like that, not even 
detectable.
    So, again, this is why 367 Members of this body, the 
majority of our colleagues on one side of the aisle and a vast 
majority on the other side of the aisle, in other words, an 
overwhelming majority of this institution, have written a 
letter to the President saying, ``We do have to have the 
international inspectors have this ability to go onto those 
military bases and other sites anywhere, anytime. That has to 
be in this negotiation.''
    Let me raise another issue, too, and that is an issue that 
I know you have spent a lot of time on at the United Nations. 
Despite the deal with Russia to remove Assad's chemical 
weapons, it is clear he still has some of them. It is clear he 
is still using them, especially having them dropped on Aleppo.
    And, Madam Ambassador, given Russia's clear desire to 
protect the Assad regime, what can the U.N. do, and 
particularly the Security Council here, to effectively confront 
the crisis in Syria?
    And I will just ask you for your thoughts, but also mention 
that last month Ranking Member Engel and I offered a successful 
amendment to the defense policy bill directing the Pentagon to 
closely examine a no-fly zone over Syria's skies. This would 
especially relate to Aleppo and the other civilian areas which 
are routinely, routinely, bombarded.
    And, you know, of course, the United States can't do this 
on its own. It would need strong support and participation from 
our allies and partners in the region. And many of them have 
been asking and offering, by the way, their support, asking for 
this kind of a step, a no-fly zone that would protect the 
civilian population there.
    And tell me about your engagement on that issue and where 
that might stand at the United Nations.
    Ambassador Power. Okay, Mr. Chairman. Let me, if I could, 
just a quick comment on your additional comment on Iran to 
simply say that there has been a lot of rhetoric from the 
Supreme Leader, from the Iranian President, from many within 
Iran, and there is a lot of politics going on, and I think it 
is not helpful for us to get into the psychology of what any 
particular Iran leader is thinking or saying at a given time.
    Chairman Royce. Well, Ambassador, it is not difficult to 
interpret what he is trying to message when he routinely starts 
the mornings with rallies of ``Death to America.''
    Ambassador Power. I understand.
    Chairman Royce. I interpret that he means what he is saying 
in these cases.
    Ambassador Power. Well, all I wanted to underscore before, 
turning to your important Syria question instead of comments, 
is President Obama will not accept a deal in which we do not 
get the access that we need in order to verify compliance.
    Chairman Royce. Thank you. We want to hold the President to 
that. Thank you.
    Ambassador Power. I am sure you will.
    So, on Syria, let me first address the chemical weapons 
issue. Because of the credible threat of military force back in 
2013, we were able to forge an agreement with the Russians, one 
of the rare instances.
    As you know, they have used their veto four times on Syria-
related issues, including a referral of some of the worst 
atrocities we have seen since the second World War, a referral 
of those crimes to the International Criminal Court. They 
vetoed that. They vetoed very mild condemnatory language.
    We live their alliance with the Syrian regime and the costs 
and consequences of that every day. I mentioned in my opening 
remarks Ukraine and the perverse consequences of a permanent 
member trying to lop off part of someone else's country. To see 
a veto holder use its veto in this reckless, disgraceful way is 
extremely disturbing.
    However, in this one instance, we were able to team up in 
order to get this dismantling regime put in place. The OPCW and 
the U.N. stepped up together, really, in an unprecedented way, 
building the airplane as they flew it. And, as a result, we 
have the removal and/or destruction of 100 percent of the 
declared Syrian chemical weapons program.
    But you are absolutely right. We also have alarming and 
grave reports that the Syrians, seemingly incapable of fighting 
without drawing on chemical weapons, have now found a new way, 
even with the dismantlement of their declared chemical weapons 
regime, which is to turn chlorine into a chemical weapon.
    We are pushing at the Security Council. We have just in the 
last few months secured another resolution again, somehow 
getting Russia's support to make it very clear to the world 
that just because chlorine is a household product doesn't make 
it not a chemical weapon when it is put in a barrel bomb and 
dropped on civilians. So we made that clear in the hopes that 
that would be a deterrent, threatened further measures.
    We are now at the point in which we need accountability for 
these crimes. And we are pushing--I don't want to get ahead of 
diplomatic discussions--but pushing Russia to take ownership of 
this, to use their influence with the regime behind the scenes 
and to move forward and get something through the Security 
Council that would actually establish accountability.
    Separate from that, in terms of the U.N., of course, 
Staffan de Mistura is the U.N. envoy. We need a big political 
push in terms of negotiations. Those negotiations have not 
really progressed since the last Geneva Conference. It has 
really been a period of protracted stalemate.
    But the regime, of course, has suffered a series of 
military setbacks. Russia and Iran themselves, of course, share 
at least one additional concern with us, which is the growth of 
ISIL in Syria.
    And so we are pushing Russia on the Security Council and 
outside of it to join with us here and make a serious political 
push so that we can get a kind of peaceful transition, one that 
brings about an end to the Assad regime, which would gas its 
people and has committed such unspeakable atrocities, but one 
also that would not leave Syria vulnerable to ISIL actually 
coming in and filling the breach.
    On the no-fly zone, finally, I don't have a lot to add.You 
know that every day we are looking into the toolbox and trying 
to ascertain which tool is appropriate in which circumstances. 
On the humanitarian, on the sanctions, on the support for the 
train and equip program, we have done an awful lot, again, to 
try to influence the situation inside Syria.
    A no-fly zone, if implemented and executed, would entail 
using military force against the Syrian regime. And our 
judgment is that, at this point, the risks of doing so would 
exceed the potential benefits, not least because of the number 
of extremists, again, who could conceivably benefit from such 
a----
    Chairman Royce. Well, remember, the main beneficiary right 
now, Ambassador, as the regime drops those chemical bombs on 
Aleppo, it is the ISIS fighters that, you know, the middle 
class, the Free Syrian Army, are battling on the outskirts. So 
here is the case in this instance of the regime working in 
tandem with ISIS in order to collapse, basically, the 
resistance to ISIS up in the north.
    But, anyway, tomorrow this committee will hear from the 
brave responders who are recently back from their efforts to 
save--these are physicians who were out there to save civilians 
from these chemical attacks--on the nature of the chemical 
attacks.
    But thank you for your good work. I need to go to Mr. 
Engel. Ambassador, thank you very much.
    Ambassador Power. Thank you, sir.
    Mr. Engel. Ambassador, as I said in my opening remarks, let 
me acknowledge the very strong work you have done in defending 
Israel at the U.N.
    You listed several instances in your written testimony, and 
I want to acknowledge your personal commitment to pushing back 
against efforts to de-legitimize Israel at the U.N.
    The ridiculous nonsense from the U.N. Human Rights Council, 
which consists of some of the worst offenders of human rights, 
really makes that Council, in my opinion, a joke and undermines 
the credibility of the U.N. itself.
    The President recently gave an interview with Israeli 
Channel 2 news in which he said that the U.S. was 
reevaluating--and I quote him--``how we approach defending 
Israel on the international stage around the Palestinian 
issue.''
    I understand that this reevaluation will not affect our 
security relationship with Israel. The President made that 
clear. But, frankly, his remarks were troubling, as were other 
remarks he has made on the same subject.
    Reevaluating the ways that we defend Israel on the 
international stage could have ominous consequences and it is 
obviously very concerning for those of us who seek to 
strengthen the U.S.-Israel relationship.
    If the U.S. priority is achieving a permanent two-state 
solution, giving Israel another reason for unease will not help 
that goal. So I want to ask you: What is the status of this 
reevaluation? And what is it based on?
    Ambassador Power. Thank you, Congressman Engel.
    First, as you yourself have noted, the President was very 
clear, I think, in that interview and has consistently been 
clear that we are not reevaluating our bond with Israel, our 
security and military relationship, the tremendous friendships 
that exist between the American people and the Israeli people.
    I think what we are engaging right now is a moment in which 
it is not exactly clear how progress toward a two-state 
solution is likely to be made. And so we are in daily touch, as 
you know, with the Israeli Government. The Israeli national 
security advisor is here in Washington, I believe, still as we 
speak, meeting with our national security advisor.
    With a government now formed, we are deepening those 
discussions again about how we find a path forward toward a 
two-state solution, recognizing, as I know we all do, that that 
is the way in which Israelis and Palestinians can live durably 
side by side in security and in dignity.
    With regard to the area of concern that you have flagged, 
the United States--the Obama administration--has consistently 
opposed the de-legitimization of Israel. We have also pushed 
consistently for the the legitimation of Israel across the U.N. 
system. And I can give lots of examples of that.
    We uniformly oppose one-sided actions designed to punish 
Israel, and we will continue to do so. I want to be very clear. 
In most cases, in many cases, at least, we are actually able to 
build coalitions and prevent things from coming up to a vote, 
as we did in December, again, when I cast a no vote. But we 
were able to deny the Palestinians--when a resolution was 
brought forward and it was biased, it was one-sided, it was 
hastily sort of jammed upon the Council, we were able to forge 
a blocking coalition.
    I also want to note that there are occasions in which we 
work with our Israeli counterparts up in New York on 
affirmative U.N. resolutions, on things that Israel thinks can 
advance its interests. And so I think it is hard to speak about 
hypotheticals, and I would caution against doing so.
    During the Gaza crisis last summer, where I know you were 
very engaged, we came very, very close, working with Israel on 
a U.N. Security Council resolution, that we thought potentially 
could be additive as that crisis was winding down. In the end, 
it didn't come to pass. But, again, the text and the content of 
what we are talking about I think would really matter.
    And suffice it to say, again, I want to underscore that the 
United States would oppose any resolution that we believe is 
biased or would undermine Israel's security.
    Mr. Engel. Well, thank you for that answer. And it goes in 
line with your written testimony--and I quote--``We have 
consistently and firmly opposed one-sided actions in 
international bodies and will continue to do so.'' So it is a 
welcome message.
    But how do you anticipate this pledge manifesting at the 
U.N. as the French and others pursue a Security Council 
resolution that could set artificial timetables for 
negotiations?
    Ambassador Power. Again, we have not seen--or I have not 
seen--a French resolution. We read in the press the same things 
you read, and we have certainly heard about various texts that 
are flying about.
    But I will say, since I have gotten to New York, there have 
always been texts circulating relating to this set of issues. 
So I think, again, I am not going to speculate on hypotheticals 
beyond saying we are not negotiating any U.N. Security Council 
resolution.
    Mr. Engel. Let me just say, in conclusion, what is 
disturbing about some of the remarks that the President has 
made is that there is the hint--or maybe not even a hint--that 
perhaps next time around on some of these resolutions, rather 
than vetoing them, the anti-Israel biased resolutions we might 
just abstain. And that, of course, would allow it to pass.
    When some of us hear that, we cringe because, if we can't 
count on the United States to stand firmly behind Israel 
against these ridiculous one-sided, biased resolutions, then I 
think it makes the U.N. almost worthless in terms of trying to 
be a group moving the process along rather than beating up on 
Israel with the built-in bias at the U.N.
    So when we hear those remarks from the President, it 
disturbs many of us that have supported a two-state solution, 
that support Israel's right to exist, and that fight against 
the legitimization of Israel all the time.
    Ambassador Power. Thank you.
    Mr. Engel. Thank you.
    Chairman Royce. We now move to Representative Ileana Ros-
Lehtinen, chairman of the Subcommittee on the Middle East and 
North Africa.
    Ms. Ros-Lehtinen. Thank so much, Mr. Chairman.
    And, Madam Ambassador, thank you for being so kind to my 
interns before this session.
    Following up on the excellent remarks made by Ranking 
Member Engel, as we know, President Obama issued a not-so-
veiled threat to Israel that the U.S. might not be able to 
support a veto of the French resolution at the U.N. Security 
Council on Palestinian statehood.
    Now, you use the word ``oppose,'' ``We will oppose.'' But 
will the United States--yes or no--veto any resolution at the 
U.N. that forces, imposes, this two-state solution on Israel? 
What will our position be? Will we veto? You say we oppose. But 
will we veto? That would send a strong message.
    Ambassador Power. Again, given that we worked last summer 
on a U.N. Security Council resolution with Israel that we were 
potentially prepared to support and we weren't able to get 
everybody on the Council to rally around, I think it is 
perilous to make blanket statements.
    But I want to underscore we have consistently opposed. We 
will oppose anything that is biased, anything that would 
undermine Israel's security. And I think our track record is 
very solid here.
    Ms. Ros-Lehtinen. Thank you. I think it is that track 
record that worries Israel. I applaud you for saying that you 
are going to root out the anti-Israel bias that exists. And 
sometimes we don't have to look too far to find that bias.
    Moving on to U.N. reform, can you provide to this committee 
later in written form a breakdown of exactly how much money 
across the entire U.S. Government have we contributed annually 
to the U.N. since 2011? I would appreciate that, Madam 
Ambassador.
    And regarding the Iranian nuclear deal and Iran and the 
sanctions we have on Iran, recent reports indicate that the 
administration will not only seek to lift sanctions at the U.N. 
on Iran's nuclear program, but also lift sanctions on Iran for 
its ballistic missile program, its conventional military 
support for terror, and its abysmal human rights record.
    Will the administration lump all of these actions against 
Iran as nuclear-related? When we tried to bring it up, we said 
they are not nuclear-related, but it seems like, to lift 
sanctions, everything is nuclear-related.
    Ambassador Power. First, on your first question, thank you 
for not asking me to do that math here on the spot. It would 
have been deeply humiliating.
    Ms. Ros-Lehtinen. It is tough for me to chew on that, too.
    Ambassador Power. And then, second, on Iran, absolutely 
not, I think is the answer to your questions. The sanctions 
that we, the United States, have put in place that are so 
important on human rights, given the deplorable human rights 
record which has not improved, their support for egregious 
atrocities in Syria, support for terrorism, all of those 
things----
    Ms. Ros-Lehtinen. It is a long list.
    Ambassador Power [continuing]. From the administration's 
standpoint, should remain in place.
    Ms. Ros-Lehtinen. They won't lump them together. Thank you.
    If I could continue, last week a U.N. panel stated that the 
U.S. has neglected to report Iranian sanctions violations, 
which the administration has denied.
    Has the administration deliberately failed to report or 
refer violations of Security Council resolutions to the 
sanctions committee? And has there been a formal or informal 
directive from the White House to not fully implement or report 
on violations of Security Council sanctions?
    Ambassador Power. Absolutely not. And I myself am involved 
often in raising sanctions violations that Iran has carried 
out.
    We have also, even over the life of this last delicate 
phase of negotiations, instituted more sanctions designations 
under the existing bilateral sanctions framework that Congress 
has been such a critical part of. So there is no pulling of our 
punches, even during these negotiations or ever.
    Ms. Ros-Lehtinen. Thank you.
    And, lastly, I remain concerned about the security 
situation in Haiti. Just last week this committee sent staff to 
Haiti to report back to us on the status of its elections.
    According to our staff, several people in the security and 
diplomatic sector expressed concerns that pulling U.N. troops 
out during an election year was a huge mistake and that the 
Haitian National Police may not be ready to ensure stability 
and security.
    What is the justification for the troop withdrawal at this 
critical juncture? And why were those concerns ignored? And 
will you commit to keep the few troops that will remain in 
Haiti after the elections are finished, we hope, in 2016?
    Ambassador Power. Thank you.
    I myself was in Haiti in January asking many of the same 
questions that you have just posed. I think what is very 
important is that the environment now in Haiti is different 
from the environment post-earthquake. We had huge engineering 
battalions who were part of MINUSTAH, the U.N. mission in 
Haiti, who were removing rubble. Now almost all of the rubble 
in the country has been removed.
    So what we have really seen is, yes, a drawdown in terms of 
the authorized number of troops. And that is something the 
United States has helped spearhead, in part, back to the 
chairman's comment at the beginning, recognizing that the 
system is massively stretched around the world, recognizing we 
have to answer up here, also, in terms of the budgetary demands 
that U.N. peacekeeping makes on the American people as well as 
on other member states, but mainly, in this instance, 
recognizing that police, foreign police units, mobility, more 
mobility, fewer engineering battalions, that, basically, you 
needed a recalibration of the mission according to new 
circumstances.
    So it is true that there has been a significant drawdown, 
but there is still a substantial infantry presence. There is 
still the ability to do rapid response. We have introduced more 
helicopters to allow troops and police to move more quickly 
across the country.
    And a lot of the functions that the U.N. peacekeeping 
mission had been performing are now migrating to the so-called 
U.N. Country Team, the development professionals, the election 
experts, and so forth. That is not really a job for the 
military in many cases.
    I also would note that you are right that the Haitian 
National Police have a long way to go, but the strides that 
they have made, I think, over the last 2 or 3 years are really 
extraordinary and very much the product of U.S. and other 
member state bilateral support as well as the U.N. training 
that has gone on there.
    Ms. Ros-Lehtinen. Thank you so much.
    Haitian Americans have greatly enriched our south Florida 
community, and we pay such close attention to Haiti. Thank you 
so much.
    Ambassador Power. Thank you.
    Chairman Royce. Mr. Brad Sherman of California, ranking 
member of the Subcommittee on Asia and the Pacific.
    Mr. Sherman. Ambassador, thank you for your service not 
only in government, but before you joined the government. Thank 
you for your work in opposing and exposing genocide, 
particularly the Armenian genocide.
    I want to echo the ranking member on the protection of 
Israel at the United Nations. We were all concerned by some 
indication that the administration would cut back that support. 
It is good to support Israel. It is even better when it is 
difficult.
    And I want to praise the administration for standing with 
Israel at the NPT consensus review process where, in order to 
prevent actions inimical to Israel, we not only opposed the 
inimical actions, but we opposed--because we had to--the entire 
agreement.
    So, hopefully, that answers the question as you have here 
when you committed to the ranking member that it is our 
position to veto one-sided, anti-Israel resolutions at the U.N.
    The President has recognized that involving the U.N. in the 
details of the peace process is not a way to advance peace. 
Obviously, the U.N. might adopt a resolution that had a few 
noncontroversial provisions: Two-state solution, peace and 
security for all.
    But would we veto any U.N. resolution that tried to codify 
the parameters of a peace deal and included controversial 
elements in that codification?
    Ambassador Power. Thank you, Congressman Sherman.
    I think that is a reprise of the Congresswoman's question 
with a slight shift. I really am going to resist making blanket 
declarations on hypothetical resolutions.
    Our position, again, I think has been very clear for some 
time. I have said, again, we would oppose anything that was 
designed to punish Israel, that would undermine Israel's 
security. But I think, again, it is perilous. There is no 
resolution in front of us.
    Mr. Sherman. I will move on to less hypothetical questions.
    Ambassador Power. Thank you.
    Mr. Sherman. First, under current U.S. law, the 
administration is required to cut off Palestinian aid if the 
Palestinians pursue or support charges against Israel at the 
ICC, and I am confident that you will follow the law on that 
one spirit and letter. I won't even ask that as a question 
because I know of your dedication to law.
    The United States Constitution vests specifically power 
over all international commerce, particularly sanctions, in the 
United States Congress. The administration has in the area of 
trade recognized that the Congress is the primary arbiter and 
has asked us to pass a statute providing limitations and 
structure, but I want to make sure that the administration will 
follow Article I of the Constitution when it comes to sanctions 
on Iran.
    We have got this review process. I would hope that you 
negotiate a deal in Switzerland so good that Congress 
universally supports it, but that may not be the case. Imagine 
a situation in which there is a deal that is cut, the 
administration supports it, but less than one-third of either 
House has indicated support for the deal.
    There are news reports that you will prevent a lifting of 
U.N. sanctions at least for a month to give Congress a chance 
to go through the process of review. Will you be allowing a 
lifting of U.N. sanctions during the statutory review process?
    Ambassador Power. Thank you. I thought you were going to 
another hypothetical, but you went directly to an issue I know 
that is in the news.
    It is useful and appropriate, needless to say, for 
Congress' voice to be heard. And I think the bills that have 
come now through both Houses provide----
    Mr. Sherman. And signed by the President.
    Ambassador Power. Pardon me?
    Mr. Sherman. And signed by the President.
    Ambassador Power. [continuing]. And signed by the 
President--provide a structure for that voice, and there is 
some predictability to it, I think, at least in terms of 
process.
    As you indicated, our view is that we will be able to 
defend any deal that is good enough for us, and we will come up 
here and seek to do so.
    On the precise sequence, it is clear that there are now two 
bodies whose voices will need to be heard. And how that will 
all work I think is, again, one of those details----
    Mr. Sherman. So you are saying it is possible that, if the 
United States Congress declares by over a two-thirds majority 
in both Houses, that we reject the deal, if we establish U.S. 
policy on this deal pursuant to Article I of the Constitution, 
you might still be at the United Nations undermining that 
policy declared by Congress pursuant to the Constitution?
    Ms. Ros-Lehtinen [presiding]. If the gentleman will 
suspend, we will have the Ambassador answer the question, but 
we are going to try to get everybody in with their 5 minutes.
    Ambassador Power. Okay. Just simply to say, again, that is 
a hypothetical about what the vote in Congress would be.
    Again, we feel this will be a deal that we can defend where 
we can convince Congress also to support the deal. All I am 
getting at is the precise choreography of how the sequencing 
works through, that is just a matter still for the negotiation.
    Ms. Ros-Lehtinen. Thank you so much.
    And now we turn to Mr. Christopher Smith of New Jersey, 
chairman of the Subcommittee on Africa, Global Health, Global 
Human Rights, and International Organizations.
    And we will try to do those in 5 minutes so everyone will 
have a chance.
    Mr. Smith. Thank you, Madam Chair.
    And welcome, Madam Ambassador, and thank you for your 
testimony and for your work.
    More than a decade ago, Madam Ambassador, sex trafficking 
and sexual exploitation and abuse in peacekeeping was exposed 
in the Democratic Republic of the Congo. I chaired a series of 
hearings beginning in 2005. I went to Goma. I spent a better 
part of a week meeting with peacekeepers and trying to get, you 
know, a real plan to try to mitigate and, hopefully, eradicate 
that horrific abuse.
    I chaired, like I said, a number of hearings. Jane Holl 
Lute sat where you sit. She is my third cousin. She did a 
magnificent job at the U.N. trying to get zero tolerance for 
the Secretary General's policy. Unfortunately, some of our 
witnesses then--and some would say still--there is a lack of 
compliance with that blue helmet bulletin.
    Last year the Advisory Committee on Administration and 
Budget said nearly half of the allegations reported in 
peacekeeping issues involved the most egregious form of sexual 
exploitation, abuse of minors. They cited Haiti, DR Congo, 
Liberia, Sudan, and South Sudan as the chief offending 
deployments.
    On May 15, as you know, the U.N. Office of Internal 
Oversight Services evaluated efforts to combat sexual 
exploitation and abuse by U.N. peacekeepers. They found that, 
pursuant to the 2007 MOU, truth-contributing countries who 
retain the primary responsibility to investigate misconduct 
apparently are not doing a very good job.
    Questions about the quality of the investigative standards, 
wide variations in sanctions that weaken the commitment to zero 
tolerance--and get this--the penalty is often simple 
repatriation and disbarment from any future U.N. peacekeeping 
deployment, not prosecution and jail.
    OIOS made some recommendations--six of them--that I think 
bear consideration on an expedited basis. Perhaps you could 
speak to that. They also noted that there was a real lack of 
helping victims, particularly little girls, who have been 
abused.
    Secondly, let me ask you about a Syria war crimes tribunal. 
In 2013, I wrote an op-ed for the Washington Post and then 
held, again, a series of hearings. We had David Crane, the 
former prosecutor from the Sierra Leone Special Court, and he 
and so many others made it clear, the ICC is not up to the 
task.
    We need a regional court like Yugoslavia, Sierra Leone, and 
Rwanda, take all of the lessons learned from that and prosecute 
both in Iraq and Syria those on either side that are 
committing--or any side--these terrible atrocities. Your 
thoughts on that.
    And, finally, the committee on NGOs for ECOSOC recently 
voted down the application for consultative status from an 
American NGO known as Freedom Now. The no votes came from 
China, Russia, Cuba, Venezuela, Sudan, Iran, Nicaragua, 
Azerbaijan, among others.
    I have worked with Freedom Now for 15 years. They have 
worked on Gao Zhisheng, Liu Xiaobo, Father Ly in Vietnam, Aung 
San Suu Kyi in Burma. A great organization. On the same day the 
Palestinian Refugee Center, which works with Hamas and 
Hezbollah, was approved.
    What are we doing to try to help Freedom Now get their 
accreditation?
    Ambassador Power. Thank you, Congressman. I will try to 
move quickly through each of these three very important issues. 
I will work backwards.
    First, on Freedom Now, I couldn't agree more. They are 
doing some of the most important work to highlight the plights 
of political prisoners around the world. I know I personally 
use their work, try to reinforce whatever they are campaigning 
on. I know Members of Congress also have teamed up with them.
    And the just very sad fact is that the NGO Committee, in 
which members are elected by the U.N. membership often by their 
regions, is stacked with a group of countries who don't 
themselves tolerate NGOs in their own countries.
    And so, you know, every frustration that one feels about 
who gets elected to this or that in the U.N. body stems from 
the same issue, which is that regions are not taking sufficient 
responsibility for the integrity of who they are putting 
forward on behalf of their continent.
    And this is a classic example, but we are not giving up. We 
are working behind the scenes with Freedom Now, and now that it 
goes to the full Economic and Social Council from this subset 
or this smaller NGO committee, we have a chance to overturn the 
vote.
    It is going to be challenging because, again, recall that, 
in the United Nations as a whole, a body of 193 countries, more 
than half are not democratic. So we always have our work cut 
out for us.
    But, again, we have been able to score a number of very 
important victories for political prisoners and human rights in 
civil societies and other bodies, and we are going to dedicate 
ourselves to that and welcome the support of Congress also 
leveraging relationships in capitals and so forth.
    Second, again, working backwards, on Syria, I remember very 
well your op ed, and I think it is a very, very important idea 
that you have put out there.
    The issue with the ICC--it may well not prove up to the 
task, but the bigger issue with the ICC is there is no way to 
get ICC jurisdiction that doesn't go through either the Syrian 
Government, which hardly wants to hold itself accountable for 
monstrous atrocities, or through Russia, which, by supplying 
and supporting the Syrian regime, is implicated in some of 
those atrocities.
    The same challenge, as you know well, would apply if we 
were to try to replicate the Yugoslav or the Rwanda Tribunal. 
Both of those came about through votes in the Security Council. 
And that goes back to the first point I made in my remarks at 
the outset, which is just this deformity, in a way, where a 
permanent member of the Security Council can block the 
creation--whether an ICC referral or the creation of an 
international criminal tribunal of the kind you are describing.
    You know, again, somebody--I think it was Chairman Royce--
raised this issue before on accountability, saying, ``Yeah. You 
always say they are going to be held accountable. The question 
is when.'' You know, we just in the last 6 months have seen 
perpetrators of the crimes carried out 20 years ago in 
Srebrenica held accountable not only at the ICTY, where they 
had been held accountable, but, also, in Serbia proper, in 
Bosnia, et cetera.
    Ms. Ros-Lehtinen. Thank you so much. Thank you. I 
apologize. But we are 1\1/2\ minutes----
    Ambassador Power. I will find a way to get the sex 
trafficking in somewhere else.
    Ms. Ros-Lehtinen. I am now pleased to turn to Congressman 
Albio Sires of New Jersey, the ranking member on the 
Subcommittee on the Western Hemisphere.
    Mr. Sires. Thank you, Madam Chair.
    Ambassador, welcome.
    During last year's Gaza crisis, five Latin America 
countries pulled their Ambassadors from Israel. I am talking 
about Chile, Peru, El Salvador, Ecuador, and Brazil.
    I am wondering. What efforts are we making to urge those 
countries to send the Ambassadors back? I know that we have 
sent letters to those countries urging them to be engaged 
again. Are we making any efforts to urge them to send the 
Ambassadors back?
    Ambassador Power. You know, I think I am going to take that 
question--all I can really speak to is what I do every day in 
New York, which is lobby those very countries not to take the 
positions they usually take in the General Assembly or with the 
Human Rights Council and so forth.
    On the very specific issue of their level of 
representation, I actually don't have an answer for that, but 
will get back to you quickly.
    Mr. Sires. Okay. Well, that is going to bring me into the 
U.N. Human Rights Commission. I personally feel that they are 
not effective when you have a Cuban sometimes leading the Human 
Rights Commission.
    Since the President made his announcement, the abuses have 
increased. People are put in jail. Women are beaten just to go 
to church. And this Human Rights Commission--I never hear 
anything regarding the abuses on the island. And I know, at one 
time, Cuba was in charge of this Commission. I mean, that is 
the biggest joke I ever heard.
    So what can we do to get them to speak up about the abuses 
on the island? I mean, this is a crackdown on the very people 
that we are trying to help, supposedly.
    Ambassador Power. Thank you.
    Again, let me just say that, on the question of the 
conditions inside Cuba, I couldn't agree more. There have 
been--I just looked up these numbers on the way over here--600 
arbitrary detentions just in the month of May alone and 2,300 
over the course of this year, in 2015.
    So there remains a significant human rights crisis inside 
Cuba. And I want to underscore, again, that the effort at 
normalization is aimed at getting at some of these issues. Now, 
clearly, it is not having an overnight effect. I don't think 
anybody could have expected it would.
    But the bet that we are making is that, over time, more 
access to information, more Internet, more exposure to 
Americans and American values, is going to actually, you know, 
help ensure that Cuba, again, over time, liberalizes. But, in 
the meantime, we have to spoke out about these abuses.
    Mr. Sires. I was just going to add, if nobody speaks up 
about it----
    Ambassador Power. Well, I certainly do.
    Mr. Sires [continuing]. It is not going to help the Cuban 
people, no matter what efforts we make.
    Ambassador Power. Well, if I could, again, in addition to 
the earlier followup that I owe you, I will send you the public 
statements made by senior U.S. officials, you know, even since 
the changes in our relationship with Cuba were announced 
because I don't think we have, again, held our tongues at all.
    I myself also make a point of meeting with dissidents like 
Yoani Sanchez, like the daughter of Oswaldo Paya, and the 
people who, you know, may well have been murdered by the 
regime. I mean, we need to walk and chew gum at the same time. 
It is extremely important.
    But if I could distinguish that from the Human Rights 
Council issue you raise. They are related. The Human Rights 
Council is vulnerable to the flaws that you and Congressman 
Engel and others have pointed to already in this hearing and 
that others have made clear their views on. It is, again, a 
body in which a country that does not have a good human rights 
record can end up in a leadership position. That is officially 
true.
    It is also a body that the United States, by virtue of 
being a member, has used to create Commissions of Inquiry for 
Syria that otherwise would not exist because of Russia's veto 
on the Security Council. That has moved the ball very 
substantially on LGBT rights. It is the first time the U.N. has 
said LGBT rights are human rights.
    It created a Commission of Inquiry for North Korea that 
documented the systematic horror that the gulags are inflicting 
on the people of North Korea every day in a way that in the 
entire history of that regime had not been done before. We have 
a special rapporteur for Iran that would not exist if not, 
again, for the Human Rights Council.
    So like a lot that exists at the U.N., it is not us. It is 
not the body----
    Mr. Sires. So do we expect that maybe this would also 
happen with Cuba?
    Ambassador Power. I think one of----
    Mr. Sires. If the abuse----
    Ambassador Power. I think one of the effects over time in 
the U.N. system of the steps that the President has taken vis-
a-vis Cuba--my prediction will be that people will be focusing 
less on the embargo and on U.S. policy, which has been a 
diversion from the human rights situation inside Cuba, and now 
we will have a better chance of drawing people's attention to 
human rights crisis inside Cuba.
    Mr. Sires. Thank you very much.
    Ms. Ros-Lehtinen. Thank you, Mr. Sires.
    We turn to Mr. Dana Rohrabacher of California, chairman of 
the Subcommittee on Europe, Eurasia, and Emerging Threats.
    Mr. Rohrabacher. Thank you very much, Madam Chairman.
    And, Madam Ambassador, thank you very much for your 
service. You are much respected, your energy and your 
commitment.
    And although there are some things that we obviously 
disagree on, I want to associate myself with my colleagues' 
concern about the blackout of reporting of human rights abuses 
in Cuba.
    And let me just note this idea that--well, it is offset in 
some way by the fact that there is going to be more Internet 
connection between people and more communication with people in 
the United States.
    The people of Cuba know when their neighbor has been 
arrested or beaten up in front of them. They don't need to see 
it over the Internet. And the people who are beating them up 
and throwing them in jail, they know, too. And, in fact, what 
they know is we have given up a huge amount of leverage over 
them and gotten nothing in return as they continue to oppress 
their own people.
    And I believe perhaps this travesty that we are discussing 
and describing there really reflects why some of us don't have 
faith that the United Nations--considering that there is a 
Cuban head of the Human Rights Commission. That we don't have 
faith that the U.N. is going to be doing the right thing to 
create a better world, that the United States has to play 
perhaps a more active, direct role rather than trying to spend 
our time maneuvering through the United Nations all kinds of 
different resolutions and policies that could have the opposite 
impact of what we are looking for.
    With that said, I would like to ask you a little bit about 
Ukraine. You were mentioning the people that were shelled, a 
family that you know that--or you described being shelled by 
the Soviet--or--excuse me--Russian allies there in Ukraine.
    How many civilians have died since this whole incident 
began? Do you know?
    Ambassador Power. Sixty-three hundred is the official 
number, but we think there is underreporting because the 
separatists don't allow access.
    Mr. Rohrabacher. Well, of that 6,300, how many were 
separatists in separatist towns and villages?
    Ambassador Power. That I don't know offhand.
    Mr. Rohrabacher. You know, I want to tell you, when I ask 
that question, almost nobody knows. But it was my 
understanding--I went over to Europe and met with some people 
involved in intelligence agencies in various countries.
    They were telling me that, actually, in the Ukrainian 
military, which was one-third made up of people who were not in 
their military, but were instead on the payroll of some 
oligarch, they had heavy artillery and were indiscriminately 
shelling these separatist villages.
    Do you know anything about that?
    Ambassador Power. First, let me actually correct what I 
said earlier. You asked how many civilians had been killed.
    Mr. Rohrabacher. Right.
    Ambassador Power. To my knowledge, the 6,300 figure that we 
have is both civilian and soldiers. So let me also get you the 
breakdown on the actual civilians, if it exists.
    Mr. Rohrabacher. All right. Fine.
    Ambassador Power. One of the issues that I raised in 
Ukraine in my visit was how critical it is for the Ukrainians 
to abide by international humanitarian law. It is absolutely 
critical.
    Mr. Rohrabacher. Yeah. Okay.
    Ambassador Power. And it is critical for hearts and minds 
as well as for the law.
    Mr. Rohrabacher. Is it possible that the majority of the 
civilian casualties that you are talking about were actually 
civilian casualties that were the victims of the Ukrainian Army 
and the oligarch that financed one-third of their Army at one 
point? Is that possible?
    Ambassador Power. If I could say two things.
    First, I think it is highly unlikely on the basis of the 
reports that we received from the United Nations and from the 
OSCE.
    Second, I want to underscore again why this conflict 
started. It started because Russia moved troops and weapons and 
so forth into the----
    Mr. Rohrabacher. Just so you know, Madam Secretary, the 
Russians would suggest it started when there was a violent 
overthrow of an elected government.
    Ambassador Power. Right. I don't make it a point of 
listening to President Putin's claims, as a general rule. I 
don't find them credible.
    Mr. Rohrabacher. Well, I think that you are our 
representative and you should pay attention to everybody's 
claims and you should refute them if they can be refuted rather 
than dismissing them.
    Because I happen to believe that, if that coup, meaning 
violent overthrow of an elected----
    Ambassador Power. Violent.
    Mr. Rohrabacher [continuing]. Violent overthrow of an 
elected government, had not happened, we would not be in this 
situation and the Ukrainians would have been spared this.
    But our--and you can go beyond that to where our European 
allies didn't offer Yanukovych the deal that he wanted and the 
response that most people in the Ukraine have. They don't like 
Russia and they didn't want to be in agreement with Russia.
    There are a lot of things that led up to this. It didn't 
start with Russia going into the separatist areas. That is not 
where it started. At least that is what they explain.
    Ms. Ros-Lehtinen. Thank you, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much.
    Ms. Ros-Lehtinen. Thank you.
    And now we turn to Mr. Ted Deutch of Florida, the ranking 
member on the Subcommittee on the Middle East and North Africa.
    Mr. Deutch. Thank you, Madam Chairman.
    Madam Ambassador, thanks for appearing today. Thanks for 
standing up for the human rights of the people of the Ukraine.
    I also want to thank you and commend you for the 
outstanding work that you have done representing this country 
and our values at the United Nations. Your efforts at the 
Security Council on the Syrian conflict, your continued 
willingness to speak out in support of human rights, your 
efforts to get the U.N. to act on Iran's abysmal human rights 
record, and your unrelenting pushback against unfair and biased 
attempts to de-legitimize Israel deserve to be commended.
    In Syria, we cannot succumb to a condition that you taught 
me, psychic numbing, despite the ongoing slaughter. And I thank 
you for pointing out today that the use of chlorine against 
one's people is the use of chemical weapons against one's 
people.
    I also want to especially thank you for your recent efforts 
at the NPT Review Conference to block language that would have 
jeopardized Israel security and for preventing anti-Israel 
efforts to place Israel on the list of children's rights 
abusers.
    I know that, going forward, you will continue to use your 
platform to prevent all efforts to use the United Nations to 
de-legitimize Israel or, importantly, to impose any outside 
solution on the Israeli-Palestinian conflict when only a 
negotiated settlement can ultimately bring peace.
    I appreciate your efforts as well you described at the 
Human Rights Council. But I would suggest that the Human Rights 
Council cannot be taken seriously. And I am someone who 
believes in engagement at the U.N., but I am repeatedly shocked 
by the decisions of the Council, including how some of the 
world's absolute worst human rights abusers are allowed to sit 
on the Council.
    My colleague from New Jersey talked about Cuba. Cuba is 
ally to Venezuela, plays a prominent role as well. And I expect 
the same bias will apply when the investigation into last 
summer's conflict in Gaza comes out, which we expect will be 
equally one-sided.
    I find it absurd that the Council has only one standing 
agenda item, the Agenda Item 7 that relates to a specific 
country. And that country is Israel.
    And my question is: While it says at the Human Rights 
Council's Web site that--it describes the election process, but 
it says, ``The General Assembly takes into account the 
candidate state's contribution to the promotion and protection 
of human rights as well as their voluntary pledges and 
commitments in this regard.''
    Under your leadership, Madam Ambassador, has the United 
States suggested that any reforms can be made to the Council so 
that the members of the Council perhaps have to recognize the 
importance of human rights as well?
    Ambassador Power. Thank you, Congressman.
    I mean, let me say the language that you have just read out 
was hard-thought language negotiated by our predecessors, by 
the Bush administration, by the United States. Unfortunately, 
simply putting that language in the kind of founding ethos of 
the Human Rights Council doesn't make it such.
    Fundamentally, as I was saying earlier, regional groups put 
forward the candidates they seek to put forward and sometimes 
there are a whole set of back-room arrangements and, you know, 
all kinds of bilateral issues that are at stake in which people 
agree to give votes to certain countries on the basis of things 
that have nothing to do with human rights, so just stipulate.
    There are two reasons that I would like to at least appeal 
to you to still consider the United States' membership in the 
Human Rights Council very worthwhile.
    The first is the very reason that you point to, which is 
the absurdity of having a single standing agenda item on Israel 
and not on North Korea and not on Syria, which is gassing its 
people, not on ISIL. You know, it is ridiculous.
    However, by the United States being on the Council, we are 
in the room and we are calling it out. In fact, since we joined 
the Council, the number of Human Rights Council resolutions on 
Israel has gone from a half of the Human Rights Council 
products to a quarter. Now, a quarter is still absurd, given 
the state of the world.
    Chairman Royce [presiding]. Ambassador.
    Ambassador Power. Yes.
    Chairman Royce. If I could interrupt, we are going to have 
to recess the committee for 15 minutes. And then we will 
commence again.
    Ambassador Power. Okay.
    Chairman Royce. But I am going to have to ask the members, 
also, to--we will be clearing the room. We will be leaving the 
dais. And afterwards we will reconvene at that time.
    Thank you very much, Ambassador.
    Ambassador Power. Okay. Thank you, Congressman.
    [Recess due to police activity.]
    Chairman Royce. This hearing will reconvene.
    And let me say we appreciate the work of the Capitol Police 
to make us aware of a security situation and to ensure that the 
hearing here is safe to reconvene.
    And I appreciate the cooperation of our witness. Thank you 
very much, Ambassador. We will now go to Mr. Chabot, Ambassador 
Power, for the questions he was going to ask.
    Mr. Chabot. Thank you, Mr. Chairman.
    And welcome back, Ambassador Power.
    I first of all would like to associate myself with my 
colleagues on both sides of the aisle with respect to Cuba. 
There is a great amount of skepticism there. I won't go into 
that great of detail because others already did, but I share 
that skepticism.
    The topic I would first like to go into in a little detail 
is the fact that Russia, as we all know, by force has taken 
Crimea and much of eastern Ukraine. Yet, this administration 
still hasn't supplied Ukraine with weaponry that is going to be 
necessary for it to defend itself. And, our U.N. allies have 
done very little to help, but that is not really surprising.
    Secretary Kerry met with Putin last month and, in effect, 
told Putin that we would lift sanctions on them if they would 
promise not to take even more territory, not that they would 
abandon Crimea, but that they not take any more territory.
    Earlier this year, my Democratic colleague, Mr. Connolly, 
and I introduced the Crimea Annexation Non-Recognition Action, 
H.R. 93, which states that it is U.S. policy not to recognize 
the sovereignty of Russia over Crimea or its waters or its 
airspace.
    What is the U.S. and what is the U.N. doing to get Russia 
out of Crimea? It is no secret that some believe that this 
administration wants Russia's support in the Iran deal so badly 
that it is willing to cut Russia some slack on Ukraine and 
especially with respect to Crimea. What would you respond to 
that, please?
    Ambassador Power. Thank you, sir.
    Well, having, again, just returned from Ukraine, these 
issues are particularly fresh in my mind as is the suffering of 
the people of Crimea, many of whom have been displaced to Kiev, 
the Tartar community there, unable to exercise its rights, 
independent media completely shut down, disappearances, 
detentions.
    So there are two issues, in a way. One is the fact that 
Russia, a permanent member of the Security Council, has 
attempted to lop off part of someone else's country. The second 
is the conditions in which people in that territory are now 
living or the displacement that has arisen from the abuses 
being carried out.
    At the United Nations, as we discussed earlier, because 
Russia is a permanent member and a veto holder, a privilege 
that all of us really should exercise great responsibility in 
having, but Russia is not, our ability to get the Security 
Council to sanction a permanent member or a veto holder, of 
course, is blunted.
    However, in the U.N. General Assembly--and this is 
unheralded, not widely known--we were able to galvanize 100 
countries to vote against what Russia was attempting to do in 
Crimea, to stand for Ukrainian sovereignty and territorial 
integrity, to reject the phony referendum which gave the people 
of Crimea a choice between independence from Ukraine and 
joining Russia. Didn't even give them, as you recall, the 
choice of remaining part of the country that they were a part 
of.
    The consequence of that resolution, which may sound 
symbolic, is that the maps at the United Nations, the maps 
under international law, will not change. And so it is still 
the case that all the maps at the United Nations, again, show 
Crimea where it belongs, which is part of Ukraine. As you know, 
U.S. sanctions that were put in place by virtue of Crimea will 
not be lifted until Crimea is restored to Ukraine.
    And with regard to Secretary Kerry's meeting, I don't know 
if there has been misreporting, but the U.S. position has been 
very, very clear, which is Minsk implementation is required in 
order for there to be any off-ramp on the eastern Ukraine-
related sanctions. Minsk implementation, as you know, would 
result in the restoration of the international border to 
Ukrainian sovereign control.
    So that is our position. That is the position also that the 
Europeans agreed to at the G7 meeting.
    Mr. Chabot. All right. Thank you.
    I am getting close to the end of my time. I have two 
questions, but I am just going to get in one.
    I think, as we all know, pretty horrific things have been 
happening to Christians especially, but to Muslims as well 
under ISIS control.
    We have seen dozens of people taken out to beaches and 
beheaded in Libya. We have seen people kidnapped, and God only 
knows what has happened. There have been crucifixions. There 
have been a whole range of things that have happened.
    What is the U.N. doing to help protect Christians in places 
like Syria and parts of Iraq and Libya? And what can we do to 
push them, get them off the dime, to get involved there?
    Ambassador Power. Several things. I mean, first, part of 
ensuring protection for civilians who are vulnerable is being 
able to shelter them when they flee their homes and making sure 
that they are not vulnerable then to secondary attacks.
    Because of the horrors carried out by ISIL, you are seeing 
a lot of advanced flight. If people even hear that ISIL is en 
route, they are picking up their families and their kids and 
getting in the car and moving forward.
    It is the U.N. working with the Iraqi Government and, 
indeed, even in parts of Syria with the Syrian Government and 
with Syrian opposition groups that are providing humanitarian 
assistance through the World Food Programme. UNHCR is 
sheltering refugees, the International Organization for 
Migration. That is on the humanitarian side.
    But the U.N. is also the venue where President Obama 
chaired a Security Council meeting on foreign terrorist 
fighters where we have tried now to create an international 
framework where people share information, stop the flow of 
these, you know, many thousands of individuals from neighboring 
countries who have staffed ISIL, who are helping them replenish 
their numbers even as the coalition degrades the organization.
    So the U.N. has become a venue in which we measure 
compliance and hold countries accountable when they are not 
doing what they should be, again, to prevent people from either 
leaving their territory or from crossing borders into Syria and 
Iraq to actually staff ISIL.
    The coalition effort also has gotten a lot of legitimacy at 
the United Nations. We have 60 countries that are a part of it. 
Iraq came to the U.N. Security Council with a letter and asked, 
in fact, for the United States and the rest of the 
international community to step up militarily and through using 
diplomatic, political, and other means against ISIL.
    So it is also a venue in which coalition countries come 
together to kind of compare notes and figure out what more we 
can be doing because, obviously, this is a long campaign that 
has a lot of ups and downs and it is going to be critical that 
we keep the military line of effort moving at the same time 
some of the governance issues get addressed so that people are 
not attracted at all to ISIL.
    At the same time, we counter violent extremism in our own 
countries as people are getting alienated and radicalized. At 
the same time, we work the social media piece, the foreign 
terrorist financing, which can be done through oil revenue or 
other resource streams that we have sought to degrade, again, 
building on international cooperation.
    But so much of the ISIL equation is the product of things 
crossing borders. And this is where, again, the United Nations, 
for all of its flaws, show its indispensability because it is 
the one organization that can impose standards that can hold 
people accountable globally, that can be a venue for naming and 
shaming, but, also, for mobilizing resources.
    Mr. Chabot. Thank you.
    Chairman Royce. We will go to Representative Karen Bass of 
California, ranking member of the Subcommittee on Africa, 
Global Health, Global Human Rights, and International 
Operations.
    Ms. Bass. Thank you, Mr. Chair, for calling today's 
meeting.
    Ambassador Power, in your opening statement, you really 
demonstrated in a few minutes the complexity of what is 
happening in the world today, the unprecedented number of 
conflicts.
    And, in this context, I really wanted to commend your 
leadership for focusing on conflicts and crises, especially in 
Africa, that often don't rise to the attention of the world. 
And I wanted to discuss a couple of examples and then end with 
asking you a couple of questions.
    You mentioned Ebola, but I really want to highlight the 
fact that you led the effort in the U.N. to push the 
international community to take action. You chaired the first 
emergency meeting to gather momentum for international support, 
and I really think it is a source of pride for all of us, the 
role that our Nation played in stamping out Ebola in Liberia. 
And I do want to ask you about this in a minute because we have 
some new cases.
    In terms of Boko Haram, in October of last year, the 
Security Council took an important step to help the Nigerian 
Government defeat Boko Haram and assisted in an effort to 
return the girls. And you may know of a weekly campaign that 
goes on here that is led by Representative Wilson where members 
come together and make sure that Members of Congress do not 
forget the girls that have been missing over the last year. So 
I appreciate your support for U.S. funding to directly support 
the AU's effort to eliminate Boko Haram.
    And in terms of the Central African Republic in Burundi, I 
had the privilege of traveling to both those countries with 
you. You were first in pushing our response, in part, because 
of your leadership in forming the Atrocities Prevention Board. 
And my understanding is the Board was informed and responded to 
the crisis at its onset and delivered $11 million in 
humanitarian support, $60 million in military assistance to the 
international effort.
    In Burundi, when we traveled there, U.N. Ambassador Thomas-
Greenfield met with the President and encouraged him not to try 
to run for a third term, and he did just that. And there was 
the attempted coup and now there is chaos.
    And so a couple of the questions I had--I wanted to know if 
you could provide an update about the U.N. response to the 
crisis in Burundi, CAR, and then also the new cases of Ebola 
that have emerged.
    Ambassador Power. Thank you, Congresswoman.
    Just to your opening point about the extent of the crises, 
the gravity of the crises, one of the lines I have been drawing 
on lately is Shakespeare's line from ``The Tempest,'' which is, 
``Hell is empty. All the devils are here.''
    Ms. Bass. I will remember that. Sometimes it feels that 
way.
    Ambassador Power. And just to underscore also the pride I 
think all of us--and it really was a massive bipartisan--you 
know, a shining example of what a significant bipartisan effort 
can--the impact it can make in the real world on Ebola.
    I mean, you know, people really stepped up in this country 
and, of course, the Congress providing the resources that we 
needed and drawing attention to the crisis, President Obama 
sending nearly 3,000 troops as well as a couple thousand 
civilians and then the American people.
    I mean, ultimately, this effort was staffed by sanitization 
workers, health workers, doctors who left their families and 
took tremendous risks, recognizing, again, a kind of core axiom 
of the international system, which is, ``It won't come here if 
we can neutralize it there.''
    And just on that score, where we are right now, you know, 
when that meeting at the Security Council that you mentioned 
occurred and when President Obama made his announcement, which 
we then used to leverage to get commitments from other 
countries, you had the CDC and others projecting as many as 1 
million infections by January 2015.
    We are now down to around 25 cases a week----
    Ms. Bass. Incredible.
    Ambassador Power [continuing]. In Sierra Leone and Guinea, 
and in Liberia, of course, we have been down to zero since May. 
It is tricky, the last stage, and as long as there is one case, 
it is a case that can quickly exponentially multiply.
    The systems are now in place. So again, the risk of a 
massive spike has been mitigated substantially by the 
investments that we have already made. But, you know, sort of 
kicking it and not just bending the curve, but ending the 
curve, it is a very, very challenging last phase.
    The World Food Programme is there, you know, providing food 
to people who go to clinics. Because part of the challenge has 
been ensuring that individuals will step up and allow 
themselves to be isolated. They were often worried initially 
that, if they left their families, there would be nobody to 
take care of their kids or their families. So it really has had 
to be a comprehensive effort.
    And I would say the biggest challenge outstanding is in 
Guinea still. The level of community resistance to outsiders 
and to messages from the center has been an impediment, but 
that is what we have to overcome here in the next phase and get 
this down to zero and then concentrate on building back better 
so that these societies are not only less vulnerable to an 
Ebola outbreak, but, also, to other forms of infectious disease 
and other health crises.
    Very briefly, if I may, just on Burundi, you are right. I 
think, when we look back at the last year, we can, on the one 
hand, take some satisfaction that we really did go all in on 
preventive diplomacy.
    We recognized that a decision to choose to seek a third 
term by the President of Burundi would be a violation of the 
letter and the spirit of the Arusha Agreement because the 
Arusha Agreement had been the social compact on which so many 
of the ethnic and political tensions had been, if not laid to 
rest, at least neutralized.
    Violating that agreement was bound to have severe 
destabilizing effects, and we got ahead of it. The message was 
sent. The Security Council also traveled in the wake of our 
visit, a huge and sustained high-level engagement by the United 
States.
    But at a certain point, you can deliver that message. You 
can say, ``Put your country first. Please, Mr. President, be 
your country's George Washington. Be prepared to walk away.'' 
And certain leaders will put their own self-interests above the 
risk of severe destabilization.
    Right now there is a U.N. envoy who is attempting to broker 
a way forward between the opposition and the leadership. But 
the third-term issue remains the central sticking point, and it 
has now been compounded by the fact that, in the wake of an 
attempted coup, which we condemned, the government has now 
attempted to shut down almost all of the independent media, 
deny freedom of association.
    So once people's rights are violated, then, again, you 
know, it is a further destabilizing phenomenon.
    Ms. Bass. Thank you.
    Chairman Royce. We will go now to Mr. Michael McCaul, 
chairman of the Homeland Security Committee.
    Mr. McCaul. Thank you, Mr. Chairman.
    And thank you, Ambassador, for being here.
    Let me first--I led a delegation to the Middle East and 
Europe. Let me commend you--and, also, working in concert with 
Lisa Monaco, we met the Turkish officials. And the information-
sharing on travel and watch lists is a huge breakthrough, and I 
commend you for that. I also encourage you to keep the pressure 
up on the foreign fighter issue.
    As you know, the EU--if you are a citizen of the European 
Union and coming out of the region through Turkey, you are not 
going to be screened past a watch list, which I thought was a 
sort of glaring security gap. I know the EU Parliament is 
getting ready to address this issue. Many of the countries we 
met with, they understand the threat that that poses. And I 
hope that you can continue to apply that pressure.
    Let me turn to foreign aid. We give a lot of money to 
countries that vote against us in the United Nations. And 
President Reagan's Ambassador, your predecessor, Jeane 
Kirkpatrick, testified before Congress and said we need to 
communicate to nations that their attitudes and actions inside 
the U.N. must have consequences for their relations with the 
United States outside of the U.N. system.
    And in response to her testimony, Congress passed 
legislation that would tie their voting patterns at the U.N. to 
the amount of foreign assistance provided. However, 
unfortunately, in 1990, this provision was repealed.
    But the State Department continued this practice of 
reporting to Congress on voting included in its report voting 
at the U.N. and listed foreign assistance alongside countries 
voting both with, for and against, the United States.
    The Obama administration ended this practice in 2010, and I 
wanted to see if you could explain to me why the administration 
ended that practice.
    Ambassador Power. Well, I am actually not aware that we 
ended that practice because we still retain very, very careful 
records of voting coincidence with the United States. It is 
extremely important.
    I study these, pore over these, look at ebbs and flows, you 
know, try to explain why a country goes from a yes vote to a no 
vote or an abstain to a yes.
    So it is extremely important. And we believe very much in 
transparency, and I am sure that this is something we can look 
at and maybe we can take offline.
    If I could get, though, at the--I think the harder issue 
that you raise is not can we share our assessment of how 
countries are aligning with us on a range of issues. It is this 
question of then what do you do about it.
    So my view is that we should call countries out. We should 
press them publicly and privately. It needs to be raised in 
capital.
    One of the advantages of being a member of the President's 
Cabinet is the close working relationship I get to have with 
Secretary Kerry and Ambassador Rice, and it puts us in a 
position, again, to elevate what often their Ambassadors are 
doing sometimes without even capitals knowing and making sure 
that there is an accountability chain back to the capital.
    Depending on the vote, I mean, it is conceivable that you 
could look at more robust steps along the lines you describe. 
But let's recall, I think, that often countries that may vote 
against us, let's say, on a resolution in the General 
Assembly--or I shouldn't say against us, but against a 
resolution that we vote for--those same countries may be 
providing peacekeepers to northern Mali, preventing a 
resurgence of extremism--or seeking to.
    They may be countries that we are providing very generous 
contributions, thanks to the American people and Congress, on 
PEPFAR and on combating HIV/AIDS. We are all part of now trying 
to ensure that girls get educated around the world. A lot of 
that foreign aid can be dedicated to that. Ebola we have 
described, you know, the investments in the global health 
security architecture we have to make that is in our interest 
over time.
    So, usually, the decisions around who we provide assistance 
to are overdetermined by a set of factors and a set of 
interests that are also very, very important to us. And so I 
just think----
    Mr. McCaul. And I know my time is----
    Ambassador Power. Yes.
    Mr. McCaul. And it is very complex, ordinarily complex, but 
I do think Congress has to look at this issue. And I know you 
are required to submit an annual report on the voting practices 
in the U.N.
    It was due on March 31, and it is June. Are you planning to 
submit this report?
    Ambassador Power. We meet our obligations to Congress.
    Mr. McCaul. Okay.
    Ambassador Power. So, yes, I will again look into where it 
is.
    Mr. McCaul. Okay.
    Ambassador Power. It may be on my desk.
    Mr. McCaul. All right. Well, I would like to see that. And 
I recognize the complexity, but it is important to us. So thank 
you very much.
    Chairman Royce. Mr. David Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Thank you, Ambassador Power, for being here today and for 
offering your expert testimony on many of the issues before 
this committee.
    I want to begin by commending you for your tremendous work 
and your leadership at the U.N. as Congresswoman Bass said, in 
a very complicated world, you have provided some extraordinary 
leadership and have been able to lead an effort to accomplish 
quite a lot at the U.N. So I want to thank you for your 
service.
    I am going to first turn to the efforts being made to stem 
the flow of foreign fighters. You mentioned in your written 
testimony in a little more detail the President convened a 
summit of leaders at the U.N. in September, where a Security 
Council resolution was adopted requiring countries to have laws 
to prosecute foreign terrorist fighters and those who fund them 
and to prevent them from entering the country and crossing 
territories.
    What seems to be the greatest challenge in seeing those 
measures implemented? And are there things that we could be 
doing to support that effort?
    Because we have heard so much testimony over the last 
several months about this issue of foreign fighters and 
stemming the flow of foreign fighters. And this seemed like a 
positive step, but I would just like to hear your thoughts on 
that.
    Ambassador Power. Thank you.
    It is not often how the question is posed, which is why, 
which I think is really important. And I think we have made 
substantial headway by putting the issue on the agenda, by 
identifying the kind of categories of action in which countries 
needed to step up, and we are not where we should be. And by 
``we'' I mean the international community.
    And Secretary Johnson, our Secretary of Homeland Security, 
just got to make this point. We held about a month ago the 
first-ever U.N. Security Council meeting in which interior 
ministers sat in the chairs. And this was our logic of saying, 
you know, in the old days, if threats were one country crossing 
another country's borders, it made sense for foreign ministry 
people to be talking to one another.
    But here, when the threats are deriving often from lapses 
in internal security or from a community's failure to catch 
that somebody was drifting off and potentially even about to 
become a foreign terrorist fighter, we need to get people who 
actually are presiding over those programs together.
    And so I think it is where the U.N. needs to go in the 21st 
century, is have more of those technical discussions where 
people who are dealing with threats inside their own borders 
come together.
    But to your question on why, I think it is, of course, a 
combination. First, there are major issues of state capacity 
and state weakness. Many of the countries from which foreign 
terrorist fighters are coming are countries that have very poor 
border security, very weak intelligence services, to actually 
be able to track citizens and how they are moving.
    And that gets to the President's West Point speech and, 
basically, his direction to all of us that we need to invest 
far more in partner capacity. Sometimes people focus on the 
military aspect of that, but the border security, the 
intelligence, you know, the kind of internal institution 
building, is extremely important.
    And then political will is an issue in some countries and, 
in others, privacy concerns. And some of the European countries 
have really held back the amount of information-sharing that 
could be done.
    Mr. Cicilline. Thank you.
    With respect to the efforts of the U.N. to protect LGBT 
individuals around the world, I would like to speak a little 
bit to that because, as you know, we have seen terrible 
increases in violence against members of the LGBT community in 
places all around the world.
    And I know you have led some work at the U.N., and maybe it 
gives you an opportunity to talk about some of the successes as 
a result of our participation in the Human Rights Council, 
recognizing it is a flawed entity with a lot of criticism that 
you heard today at the hearing.
    But I know that there has been some good that has come from 
our participation. So maybe you could speak to that briefly.
    Ambassador Power. Well, thank you. That is actually where I 
was going before we were interrupted before in response to 
Congressman Deutch's question. So I appreciate that.
    You know, we have already discussed at length here some of 
the flaws or the structural issues with the U.N. Security 
Council. And time and again we find there or in the General 
Assembly, which is comprised--more than half of the U.N. member 
states are not democratic and are not necessarily rights-
respecting. So the Human Rights Council can be a venue in which 
like-minded countries can come together to push the envelope on 
norms.
    And in the case of women's rights, we all remember back in 
1993 the Beijing Conference on Women. Women rights are human 
rights. The same shift has now happened on LGBT rights, where 
the declarations have been made, where resolutions that ban 
extrajudicial killings against various persecuted groups--now 
we have managed to insert those killed on grounds of sexual 
orientation or sexual orientation status--I think that is an 
example, again, of finding the institution--forum shopping, in 
a sense, within the U.N., finding the institution where you can 
mobilize the votes and then pushing the envelope.
    What we have now just this month is the second report ever 
prepared by the High Commissioner for Human Rights on the 
treatment of LGBT persons. So for the first time, again, you 
have a norm that is important, but not everything. 
Implementation is what matters.
    Then you have accountability to that norm: How are 
countries measuring up, actually documenting that for the first 
time? So people who have felt invisible in their societies and 
persecuted now know that the international community is 
watching and that we have their back.
    Mr. Cicilline. Thank you very much.
    Mr. Chairman, I know my time is expired, but I might just 
submit a question and ask for a written response.
    I am proud to be the co-chair of the Congressional 
Peacekeeping Caucus, which we just recently formed along with 
my colleague, Adam Kinzinger, so that members could discuss the 
implication of regional peacekeeping operations and their 
impact on U.S. foreign policy and national security.
    So, if you could, Madam Ambassador, let us know what 
reforms you think are needed, what role the U.S. has played in 
supporting peacekeeping missions and what benefit do these 
international forces have to American strategic goals and 
national security and have U.N. peacekeeping missions been 
successful in carrying out their missions, it would certainly 
help guide the work of this new caucus and continue to 
hopefully be a supportive entity within the Congress for the 
work of the U.N. and its peacekeeping operations. And I thank 
you again.
    And I yield back, Mr. Chairman.
    Chairman Royce. We are going to go to Mr. Ted Yoho of 
Florida and then back to Mr. Ted Deutch of Florida.
    Mr. Yoho. Thank you, Mr. Chairman.
    Ambassador Power, I appreciate you being here.
    You were talking earlier today about these are the kinds of 
conditions--we were talking about Syria and the Ukraine--kind 
of conditions and situations we see conflict in that the U.N. 
was created to prevent. You know, we look at Ukraine, Syria, 
over 200,000 killed, Afghanistan, Iraq, North Korea, Africa.You 
know, you can go on and on and on. Why has the U.N. not been 
more effective in preventing these?
    I read a report today talking about the peacekeepers in 
Haiti, and there was over 220 examples of the peacekeepers 
trading phones and aid for sex, and, you know, they are 
supposed to be out there promoting this. Yet, this happens over 
and over and over and over again. Yet, we do a study to study 
it and there is no end in sight, it seems like. Why are they 
not more effective?
    Ambassador Power. Thank you, sir.
    Mr. Yoho. And I think, more importantly, how to make them 
more effective.
    Ambassador Power. Right. Right. No. That is a question I 
ask myself every day.
    I mean, first, the ``they'' is also us. Right?
    Mr. Yoho. Right.
    Ambassador Power. We are part of the international system. 
So there are 193 countries, half of whom are not democratic. To 
some extent, the organization is going to reflect some of the 
dysfunction of member states who comprise the organization.
    On the issue of sexual abuse, of course, there is no 
justification. There is not one country that would raise its 
hand and say they are anything but revolted by what happens. 
But, then, as was said, I think, by--maybe it was Congressman 
Smith earlier--when a peacekeeper from a particular member 
state is found or is alleged to have committed crimes against 
young people or against women or against men or boys, they go 
back to their home State and the only punishment exacted upon 
them is often just not getting to be part of that mission, not 
getting to continue to carry out the practices that they were 
carrying out.
    So the reason I started my response to you by saying the 
U.N. is the sum of the efforts of the member states who 
comprise it is that, ultimately, our ability to change those 
horrific practices and that horrific lack of accountability is 
going to turn on what we achieve in the capital, in our 
strengthening of those institutions, in ensuring that those 
countries have the rule of law.
    In a democracy, if somebody was accused of that, they would 
come back and they would face--I think, if it was an European 
or an American peacekeeper, they would go through a formal 
justice system. That is not what happens in a lot of these 
developing countries where those systems are underdeveloped.
    So this is why investments, again, in the kind of 
institutions that we were talking about, also, in the context 
of foreign terrorist fighters is very important. But it is also 
why using our platform to denounce this, to never tolerate it, 
and to emphasize the one part of the U.N. that we fund, which 
is the Secretariat, that, on the one hand, gets instruction 
from the member states--so it suffers from the same issue that 
I have described already--but has autonomy.
    And for the Secretary General and his team to be 
investigating these abuses, to be sending people home, to be 
calling on those member states even publicly, if that is what 
is required, to investigate and to build on some of the 
internal--you mentioned studies. Nobody likes studies for their 
own sake. But when you find that a country has not actually 
prosecuted a person who has violated a child who has relied 
upon that individual for protection----
    Mr. Yoho. Right.
    Ambassador Power [continuing]. You call that country out. 
You visit that country----
    Mr. Yoho. I want to come back to that, you know, because 
that is where I think we need to go.
    I want to switch over to Iran. You said the Obama 
administration led unilateral, multinational sanctions against 
Iran to bring them to the negotiating table on the Iran nuclear 
agreement.
    What was the purpose of that whole negotiation? What we 
were trying to prevent?
    Ambassador Power. The negotiation or the sanctions?
    Mr. Yoho. Well, the sanctions. What was the whole point of 
that? I know it was to bring them to the negotiation table. But 
with the Iran nuclear negotiation now, in your mind, what are 
we trying to accomplish?
    Ambassador Power. We are trying to deny Iran a pathway to a 
nuclear weapon.
    Mr. Yoho. Okay. That is what everybody says, but, yet, we 
are beyond that. Because, you know, I have had expert after 
expert over 2 years sitting right where you are at saying that 
Iran has enough material for nuclear bombs now.
    Henry Kissinger came out and said that. George Shultz said 
that. We had a retired general last week say they have enough 
right now. And I think we are beyond that.
    I just don't see, you know, in good faith how we can 
support this agreement. I would think that sanctions should be 
back in place. And you said that President Obama has snap-back 
authority--with his pen is what you said.
    Do you really have the expectation that a snap-back would 
be effective? You know, I mean, they are not even coming clean 
now. So why would we go forward?
    And if we do find out, you know, and it is, you know, more 
evident that they have not held up to their end of the 
condition, do we really think that we are going to put these 
sanctions back in place with snap-back?
    Ambassador Power. First of all, again, there is no deal. We 
are still negotiating a lot of the terms of the deal. And as 
you can see from some of the public commentary, there are 
significant differences that remain.
    And our red lines are red. And we are not going to take a 
deal where we can't come to the American people and say that we 
have achieved the objective that those sanctions----
    Mr. Yoho. I am out of time.
    But a red line is they can't have nuclear weapons, but they 
already have.
    Ambassador Power. They don't have a nuclear weapon.
    Mr. Yoho. Well, the experts disagree with you.
    Ambassador Power. I don't think there is an expert who says 
Iran has a nuclear weapon.
    Mr. Yoho. No. They have the capacity right now to have 
that. So I think we are beyond that point, trying to prevent 
that which we can't instead of preparing for that which will 
be. Thank you.
    Chairman Royce. We go now to Mr. Ted Deutch of Florida for 
his remaining 2 minutes.
    Mr. Deutch. Thank you, Mr. Chairman.
    And, Ambassador Power, thank you again for being here. 
Thank you for staying to give all the members the opportunity 
to discuss these important issues with you.
    I just had two final points in my remaining time.
    First, you had said earlier in response to a question about 
the specifics of snap-back that Congress will be briefed if a 
deal is done. And I would just make the request of you and the 
administration that, rather than waiting until there is a deal 
that is done, that this is the time, over the next couple of 
weeks especially, when it is so important for the 
administration to brief Congress, to let us know what is 
happening, so that, one, we are aware of what is happening, 
two, we can chime in, we can have our questions answered and, 
most importantly, so that no one is surprised with the idea 
that a deal will simply be dropped upon us at some date on or 
after June 30. That is just a request.
    And, finally, I wanted to thank you for your efforts in 
working with the Israeli Ambassador to the United Nations to 
put together the first General Assembly special session on 
anti-Semitism. I am grateful for your invitation to allow me to 
participate.
    Some of the important topics that we covered that day were 
the anti-Israel bias in some parts of the United Nations, the 
growing BDS movement, and thinly veiled anti-Semitism there, 
and the other forms of anti-Semitism that in recent months have 
manifested themselves in violent and deadly attacks in Brussels 
and Paris and Copenhagen and elsewhere.
    And my question is: After that special session on anti-
Semitism, after that conference, when there were more than 60 
countries who participated, what has been done? What have you 
done? What has the U.S. delegation done in order to move 
forward with some of those important discussions that took 
place then: How to combat anti-Semitism, how to help nations 
around the world understand that anti-Semitism in their 
countries isn't just an issue as it affects the Jewish 
community, but, ultimately, when there is hatred, anti-Semitism 
in the Jewish community is often just the canary in the coal 
mine? And if you could talk about what has happened since.
    Ambassador Power. Thank you, Congressman. And thank you for 
coming to that session.
    On that issue--and I will come back to your point about the 
Iran deal in just a second--it was truly a historic session.
    I mean, when you think about what the General Assembly not 
only has done historically in terms of its resolution equating 
Zionism and racism, but, also, what it does annually--this last 
year with 18 anti-Israel resolutions, all of which were voted 
against--to be in that chamber I think was extremely important 
not only for the Government of Israel, but for the United 
States and for many of the countries that helped shepherd that 
session forward. It wasn't easy.
    In terms of follow-through, I think we have to be careful 
not to confine discussions of anti-Semitism to meetings on 
anti-Semitism.
    So what we are doing at the Human Rights Council, in the 
General Assembly, when we talk about other human rights 
challenges that we are facing in the world, we are always, 
again, coming back to anti-Semitism, documenting what has been 
done, who has done what.
    We are still doing a lot of advocacy, including by our 
anti-Semitism envoy, Mr. Forman, in capitals to try to get 
governments to do what we have done, which is to appoint a 
special envoy also dedicated to this effort and somebody 
preferably very plugged in in the center and not somebody, 
again, you kind of throw off to the side and keep marginalized 
from the mainstream of decisionmaking because there are issues 
of prosecution, of education, again, of community outreach and 
so forth that are central to this and require real political 
will from the top.
    So a lot of our outreach has been in capital and at the 
United Nations. Again, we are seeking to mainstream this issue 
so people know you don't get a clean bill of health on human 
rights when you are simultaneously encouraging anti-Semitism.
    On the Iran deal--and I know we are both out of time here--
I would just note that what I really meant was that 
fundamentally this deal is going to come. Back here people are 
going to be studying it. They are going to be asking questions.
    But, as you know, we have been briefing this deal at every 
turn. And I believe specifically on the snap-back mechanism, if 
members have not received adequate, you know, insight into how 
we are looking at that and what the range of options are--and, 
again, any one of them I think would achieve the shared 
objective we have, which is to keep that within our authority--
this is the one at the U.N. I am referring to--but, again, if 
there is any shortage of insight in terms of how we are looking 
at this, that is something I am eager to provide. I know Under 
Secretary Sherman or the Secretary would be as well.
    But absolutely I take your point. We have sought to engage 
Congress throughout this process. I think there have been more 
briefings on this issue than any other on Planet Earth. But, 
again, if there is more information that we need to provide at 
this delicate stage, we would be happy to do so. Just in an 
open hearing may be not ideal.
    Chairman Royce. Well, I might take some exception, 
Ambassador. I mean, from the standpoint of Congress, we do not 
feel we have received the details on these negotiations, as you 
know. But we have a conflict of visions, I guess, on on that.
    We will go now to Mr. Curt Clawson of Florida.
    Mr. Clawson. You don't have an easy job.
    Ambassador Power. I love my job.
    Mr. Clawson. Thank you for coming, and thank you for your 
service to our country.
    It sounds to me sometimes after listening today, which I 
did attentively both when I was in the room and when I was not, 
that the rest of the world gets a great deal here.
    The oil companies get to run great surpluses with us. We 
fund their economies. The manufacturing outsource in countries 
of the world, China being the top of the line, run great trade 
surpluses with us.
    Then they all go to the U.N. and they pound on us. They 
pound on Israel. As I heard earlier from Congressman Deutch and 
others, not objective with respect to Israel, not objective 
with respect to slavery, not objective with respect to Cuba, 
just overall not objective.
    And then, on top of all of that, we get to pay for it. So, 
in nominal terms, we are over 20 percent of the world's GDP. 
But, as understand it, we are paying over 20 percent of the 
cost to the U.N.
    There is something wrong with this picture. It seems that 
we are not using our money at the U.N. to create leverage and 
nor are we using our markets to create leverage. So we fund 
everyone else's economy. In the global economy, we are the 
engine, and then we turn around and tolerate the kind of things 
that you have been talking about today.
    Being Mr. and Mrs. Nice Guy doesn't seem to be working 
here. It feels like, from an economic perspective, people only 
understand leverage. And so, therefore, I am not clear why we 
don't use our economic and monetary leverage both at the U.N. 
and with respect to the global marketplace.
    Am I missing something here in my synopsis? I am sure you 
are going to tell me I am.
    Ambassador Power. I would say a few things in response.
    First, I understand the frustration. And one of the 
priorities that we have had at the U.N. is to get more 
countries to pay their fair share.
    And I think you are going to see--you have seen over the 
last 3 to 5 years China's share, for instance, of U.N. 
peacekeeping, where the United States is the lead funder--but 
its share has gone up by more than 50 percent. And soon, in 
this next round of negotiations around the peacekeeping skills, 
you are going to see it go up another 50 percent, commensurate 
with its share of the global economy.
    And that is the kind of distribution of resource provision 
that we need to see at the U.N. and as people graduate from 
being underdeveloped countries, they need to step up and take 
their share of the burden. And that is something, again, that 
is constantly being reassessed.
    Mr. Clawson. Can I follow up on just that point?
    With respect to China, I mean, the American consumer, via 
Walmart, is funding the building of their military and their 
economic prowess.
    Do we ever talk not only about having them increase what 
they pay for at the U.N., but, also, do we ever want to use our 
marketplace to kind of level things out here?
    Ambassador Power. Well, just to stick to what I know best, 
which is the place I work and how we engage the countries that 
you have expressed concerns about, you know, the fact of the 
matter is we, as a Nation, as we saw with the Ebola crisis, 
have an interest in global health security, in part, because of 
the globalized economy, in part, because goods and people are 
crossing borders in the way that they are.
    And so the notion that we can kind of take our marbles and 
go home and wish everybody the best and say, ``Well, good luck 
with that'' I think doesn't really get at the core national 
security linkages and human security linkages that exist in 
2015.
    I also would note on peacekeeping, which is the place 
where, again, it is fair to ask shouldn't other countries be 
stepping up more, that peacekeeping, while we are a major 
contribution, it is not our forces who are going into South 
Sudan and, you know, being on those bases and protecting 
civilians. It is not our forces in Northern Mali, more of whom 
have been killed this year than in any peacekeeping mission by 
IEDs and other things.
    We are taking advantage of the global system as well in 
order to ensure that issues of shared security are being 
patrolled and manned by individuals, other than Americans and 
American families, because we have done more than our fair 
share over this last decade.
    Indeed, the peacekeeping share that we pay still leaves the 
rest of the shares, even put to one side the fact that it is 
other countries' troops and police that are going to those 
dangerous places. Other countries are also paying 72 percent of 
the burden.
    And if you look at NATO defense expenditures where 
Europeans really have not stepped up to allocate as much of 
their GDPs to defense as they should be, the figure is 
reversed. We are 80 percent of NATO's defense expenditures.
    So I actually think, even though U.N. peacekeeping suffers 
from all of the flaws that we have described and that is why 
President Obama has launched this very aggressive initiative to 
try to enhance accountability and ensure that those missions 
have better capabilities to protect civilians and prevent 
sexual abuse and so forth, in terms of our interest and 
actually seeing atrocities be prevented, global epidemics 
stemmed at their source, radicalization prevented by virtue of 
actually having some stability, the rule of law advanced not 
least also because of corruption and some other things that we 
see, which don't help American companies seeking to operate in 
these environments, there are a set of investments there that 
are good for us.
    And the United Nations helps us make them, but also helps 
us force multiply because what we invest we are able to 
leverage. It is still 72 percent on peacekeeping provided by 
others. In our regular budget, it is 78 percent provided by 
others.
    Chairman Royce. We go now to Dr. Ami Bera of California.
    Mr. Bera. Thank you, Chairman Royce.
    And thank you, Ambassador Power, for both your service to 
our country, but your service over the years as a leading 
advocate on global human rights.
    I am going to turn my questioning a little bit to internal 
politics within the U.N. as a body, it certainly has served us 
well throughout its history. But if we look at the makeup of 
the U.N. Security Council, you know, it does seem like it is 
time to revamp the permanent membership of the U.N. Security 
Council, certainly to include the G4 countries, you know, 
India, Brazil, Japan, and Germany.
    If we take India, specifically, you know, soon to be the 
most populous nation on the planet, one of the fastest growing 
economies, certainly a critical ally of the United States, my 
understanding is President Obama has also publicly stated that 
he would be supportive of including India as a permanent member 
of the U.N. Security Council.
    Can you give us a sense of how this body working with the 
administration might be able to work within the political 
structure of the United Nations to move forward, including more 
nations as permanent members, again, and recognizing the world 
that we are in in the 21st century?
    Ambassador Power. It is an excellent question. And because 
it is the 70th anniversary of the U.N., it is a question that 
many of my counterparts from around the world are asking this 
year specifically.
    And there is no question that, when you have a body whose 
permanent membership hasn't changed in 70 years, you know, 
there are people on the outside who ask, ``Well, is this the 
alignment of power and influence in 2015?'' and it is hard to 
say that it is a perfect calibration.
    I think the challenge is, while almost everybody is 
supportive of Security Council reform in the abstract, there 
are quite bitter divisions within the U.N. membership about 
just who should get those seats.
    And while India has the support, the United States has made 
clear, President Obama made clear, as you know, on his trip 
that we can't imagine a reformed Security Council that wouldn't 
include India, there are other countries who are throwing 
everything they have at preventing that outcome.
    And so what has not happened is you have not seen one 
version of Security Council reform that has gathered a majority 
of countries. And even this year, when there has been more 
action on this issue, you really haven't seen momentum, again, 
gather around any particular reform scenario.
    The U.S. position is very clear. We, again, recognize some 
of the legitimacy challenges that the current Council poses 
particularly in terms of its permanent membership. We recognize 
the growth and the influence of countries like India, who, 
incidentally, also are one of the leading contributors to 
peacekeeping, so do a huge amount within the U.N. family and 
have a huge amount to offer as the world's largest democracy.
    But we also are very focused on the effectiveness of the 
U.N. and efficiencies. And so we are also looking beyond that 
case at how countries would likely perform on the Security 
Council. We are looking at issues related to voting 
coincidence, which was discussed earlier, because, of course, 
we are looking for countries that share our approach to 
promoting international peace and security, to promoting human 
rights, to seeing the linkages between the humanitarian and the 
human rights, on the one hand, and the peace and security, on 
the other. It is not clear that this is going to move forward 
quickly.
    Mr. Bera. As these discussions take place and the U.N. 
debates how to expand the Security Council, are there things 
that this body, Congress, can do that would be productive in 
helping move this along?
    Ambassador Power. Well, I probably should have noted that, 
in order for Security Council reform to take hold, this 
Congress would also have to ratify any reform package. So in 
the past, while the permanent membership has not changed since 
1945, the size of the Council has. And that has to come before 
this Congress.
    Maybe one thing that could be done as an intermediary step 
is to actually pass IMF reform because one of the things that 
these emerging powers look to is the Congress' ability to 
ensure that international--to support measures that would 
ensure that international institutions actually reflect 2015 
measures of influence, including economic influence, as 
distinct from those from a decade or more ago.
    And that has been stuck here, as you know, for some time, 
and I think would be a very important show of our attention to 
the rise of these countries, to the need for their voices to be 
exercised and, also, for the need for these countries to 
dedicate more resources to the comments because, just as they 
want more representation and more authority, we would also like 
to see them, per our last exchange, contribute more, you know, 
to everything from peacekeeping, to development, to 
humanitarian assistance, et cetera.
    Mr. Bera. Great. Thank you, Ambassador.
    Ambassador Power. Thank you.
    Chairman Royce. Well, thank you very much, Ambassador 
Power. We thank you for being with us this morning, and we also 
thank you for returning and for our brief interruption.
    I look forward to continuing to work with you on the 
pressing issues raised here today, including the plight of the 
Rohingya refugees, on issues like peacekeeping reforms and the 
ongoing crisis in Syria and, of course, with you and the 
administration on Iran's sanctions.
    The committee trusts the administration will be in close 
touch with us on these negotiations. We don't want to be 
surprised in the final agreement, given the position that 
Congress has taken on this, and especially the suggestion that 
the administration may be backing off its original demand that 
Iran submit to inspections of its nuclear sites at any time. 
This is important to us, as is this question of the lifting of 
sanctions not being on the front end as a signing bonus, but, 
instead, being over the long haul of what was supposed to be a 
20-year agreement.
    But we thank you again, Ambassador. And see you soon in New 
York.
    Ambassador Power. Thank you, Mr. Chairman.
    [Whereupon, at 12:58 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
